            Peace Corps
            Office of Inspector General




The Volunteer Safety Support System, as outlined in the Peace Corps Manual.




        Final Program Evaluation Report:
          Volunteer Safety and Security


                                                             August 2008
                                  EXECUTIVE SUMMARY

Peace Corps has implemented several of the recommended safety and security measures
identified in the General Accountability Office’s reports on Volunteer safety and security.
According to Peace Corps Manual section 270, the agency has identified the following as five
tenets for enhancing the safety and security of its Volunteers:

    •   Responding to crimes and reporting and analyzing crime statistics
    •   Monitoring, assessing, and disseminating information on the security environment
    •   Safety and Security Training
    •   Development, monitoring, and inspection of Volunteer sites
    •   Planning for emergencies through Emergency Action Plans

The Office of Inspector General/Evaluations Unit performed an evaluation of the agency’s
safety and security system from January 2007 to January 2008. Our evaluation reviewed the
agency’s policies and procedures that address these five tenets. Some of our findings
included the following:

    •   Peace Corps has successfully conducted 39 evacuations of approximately 2,600
        Volunteers from 1997 to 2007. The Office of Safety and Security is not aware of any
        injuries or deaths resulting from these evacuations.

    •   In the 2004 and 2006 biennial Volunteer surveys conducted by Peace Corps, over
        90% of Volunteers rated the efficacy of safety and security training during pre-
        service training as “adequate,” “effective,” or “very effective.” Results from the
        2007 Close of Service Survey, which Volunteers complete just prior to returning to
        the U.S., reflect similar results. Eighty-seven percent of the Volunteers we
        interviewed echoed the survey results by expressing satisfaction with safety and
        security training.

    •   Agency crime data was unreliable. In our sample of data from ten posts, we found
        that 56% of incident reports between February 2006 and June 2007 contained at
        least one error in a critical data field. Additionally, six of the ten posts in our sample
        did not timely report violent crimes to headquarters. One post took an average of 58
        days to report violent crimes via the Crime Incident Reporting Form (CIRF).

    •   Welcome Books provided information on global safety and security risk factors, they
        did not provide country-specific risk factors; this could be misleading to potential
        Volunteers as global safety and security risk factors may be very different than the
        country specific risk factors.

    •   At the time of the OIG visits, 40% of the Volunteers’ houses did not meet the posts’
        own criteria for safe housing. Also, Volunteer Site Locator Forms (SLFs) were not



Final Program Evaluation Report                                                                  i
        always complete. Specifically, 37% of the SLFs did not contain sufficient
        information to locate Volunteers’ sites in emergency situations.

    •   Emergency Action Plans (EAPs) did not always contain essential information to
        facilitate Volunteers’ speedy and safe consolidation or evacuation from their country
        of service; 95% of EAPs worldwide did not contain contact information for ground
        transportation, and 35% did not include information on charter flight options.

    •   Not all EAPs were tested in accordance with agency policy or under realistic
        conditions. From 2005 to 2006, ten posts did not include all Volunteers in at least
        one EAP test and 16 posts did not test their EAPs without the use of cell phones.

    •   Peace Corps Safety and Security Officers (PCSSOs), who serve as regionally-based
        safety and security specialists, have provided posts with substantial support,
        including Volunteer safety training, training of safety and security coordinators
        (SSCs) and other staff, reviewing and testing emergency action plans (EAPs), and site
        selection and monitoring procedures.

    •   PCSSO recommendations were not systematically tracked by all three regions and
        were often not implemented due to budgetary considerations or lack of consensus
        between field and headquarters management.

    •   Agency performance indicators of strategic goals on Volunteer safety and security
        did not consistently promote improvement.

Our report contains 20 recommendations, which if implemented, should improve internal
controls and correct the weaknesses outlined above.




Final Program Evaluation Report                                                               ii
                                               TABLE OF CONTENTS

Executive Summary .............................................................................................................................. i

Introduction..........................................................................................................................................1

Objective, Scope, and Methodology .................................................................................................2

Responding to Crimes and Reporting and Analyzing Crime Statistics ........................................5

Monitoring, Assessing, and Disseminating Information on the Security Environment .........14

Safety and Security Training .............................................................................................................16

Development, Monitoring, and Inspection of Volunteer Sites...................................................18

Peace Corps Safety and Security Officers ......................................................................................21

Strategic Goals and Performance Indicators .................................................................................34

List of Recommendations.................................................................................................................38

Appendix A: Threats to Volunteer Safety at Posts That Did Not Include All Volunteers in
Emergency Action Plan Tests

Appendix B: Comparison of Global Risk Factors For Assaults Reported In Welcome Books
With Actual Country Data For 2004

Appendix C: Historical Perspective of Peace Corps’ FY 2007 Performance Goal and
Indicators Related To Volunteer Safety And Security

Appendix D: Prior Reports

Appendix E: Errors in Crime Data Found in the Ten Sample Posts Reviewed

Appendix F: Management's Response

Appendix G: OIG Comments

Appendix H: Office of Inspector General Contacts
                                       INTRODUCTION
The Peace Corps has stressed that the safety and security of its Volunteers is its highest
priority. To reduce the risks facing its Volunteers, the agency has identified the following
five tenets to promote and enhance the safety and security of its Volunteers:

    •    Responding to crimes incidents and concerns, and reporting and analyzing statistics
         on crimes against Volunteers.
    •    Monitoring, assessing, and disseminating information to Volunteers on the security
         environment.
    •    Comprehensive safety and security training preparing Volunteers to adopt culturally
         appropriate lifestyles and exercise judgment that promotes safety and reduces risk in
         their home, at work, and while traveling.
    •    Development, inspection, and monitoring of Volunteer sites to ensure placement in
         appropriate, safe, and secure housing and work sites.
    •    Planning for emergencies through Emergency Action Plans (EAPs) which set forth
         procedures staff and Volunteers should follow to prepare for and respond to non-
         medical emergencies that may occur in-country.

In 2002, the Government Accountability Office (GAO) conducted an evaluation of Peace
Corps’ safety and security program. One of the main findings of the GAO report was that
the Peace Corps safety and security framework was unevenly implemented. The Peace
Corps concurred with this and all other findings in the GAO report. To respond to the
GAO’s recommendations, in 2003 the agency created a centralized Office of Safety and
Security, which is responsible for establishing the agency’s safety and security policy and
supporting overseas posts in implementing safety and security policies through guidance,
training, supervision, and oversight.

The Office of Safety and Security incorporated three functional areas of safety and security
responsibility that were previously under other offices:
    1. Volunteer Safety and Overseas Security (VSOS) is responsible for coordinating
       overseas operations and directing the activities of nine Peace Corps Safety and
       Security Officers (PCSSO). PCSSOs report to VSOS and serve as consultants to the
       posts on matters such as (1) safety and security training to Volunteers and (2) posts’
       EAPs.
    2. Physical Security is responsible for securing domestic facilities.
    3. Information and Personnel Safety and Security is responsible for initiating and
       processing security clearances for Peace Corps employees.

In addition, the agency created two new units and placed them in the Office of Safety and
Security:
    1. The Crime Statistics and Analysis (CSA) unit is responsible for the management of
       data collection on crimes against Volunteers, statistical analysis of security trends for
       the agency, and oversight of the incident reporting process.



Final Program Evaluation Report: Volunteer Safety and Security                                 1
    2. The Emergency Preparedness Plans, Training, and Exercise unit (EPPTE) is
       responsible for coordinating the Presidentially-mandated continuity of operations
       planning (COOP).

In addition, one safety and security desk officer, who serves as a liaison between
headquarters and the field, was added to each of the three regions: Europe, Mediterranean,
and Asia (EMA), Inter-America and the Pacific (IAP), and Africa.

The safety and security infrastructure at the post level was enhanced by adding a local hire
position, called safety and security coordinator (SSC). SSCs are located at each Peace Corps
post and they are responsible for analyzing the security environments throughout the
country and particularly in the communities where Volunteers live and work.

One of the agency’s most recent efforts to improve the tracking of the safety and security of
Volunteers was the implementation of a new crime tracking system. This system automates
the immediate notification of a crime incident against a Volunteer per the Office of
Inspector General’s 2004 Violent Crime Protocol 1 and introduces a globally uniform method
for reporting crime incidents.

On February 1, 2006, Peace Corps officially launched the Crime Incident Reporting Form
(CIRF) to all posts. The CIRF replaced the Assault Notification and Surveillance System
that was implemented in 1990 by the Office of Medical Services. With the introduction of
the CIRF, the responsibility of collecting and managing the accuracy of crime data reported
to headquarters was transferred from the Office of Medical Services to the Office of Safety
and Security.

The CIRF combines all crime related information used by the Office of the Inspector
General, the Office of Medical Services (OMS), and the Office of Safety and Security into
one reporting system that is guided by one crime incident hierarchy. The Office of Safety
and Security intends to replace the CIRF with the Crime Incident Reporting System (CIRS)
in April 2008.



               OBJECTIVE, SCOPE, AND METHODOLOGY
The Office of Inspector General/Evaluations Unit performed an evaluation of the agency’s
safety and security system from January 2007 to January 2008. We interviewed headquarters
staff, collected relevant data and documents from headquarters offices, and performed
fieldwork at 17 Peace Corps posts from February to May 2007.

We selected ten Peace Corps posts (of 74 total posts in January 2007) to conduct fieldwork,
based on Volunteer crime statistics reported in the 2004 and 2005 Safety of the Volunteer
reports. From each of the nine PCSSOs’ sub-regions, we chose one country where
Volunteers had reported a wide variety of crimes (sexual assaults, physical assaults, and

1
  In 2004, the agency initiated the Violent Crime Protocol that required posts to notify Peace Corps/OIG of
a violent crime immediately (preferably within 24 hours of a Volunteer reporting the crime).


Final Program Evaluation Report: Volunteer Safety and Security                                            2
property crime) and the crime rate was high compared to other posts in the sub-region. In
addition, we included PC/Thailand in our sample because that post had a low crime rate in
2004 and 2005 compared to other Peace Corps posts worldwide and served as the home
post for a PCSSO.

We spent two weeks conducting in-depth safety and security reviews in each of the following
ten countries: Bolivia, Jamaica, Kyrgyz Republic, Mali, Moldova, Mongolia, Senegal,
Swaziland, Thailand, and Vanuatu. In addition, we interviewed the PCSSO and where
available, the country director, SSC, and Regional Security Officers in El Salvador, Fiji,
Kenya, Peru, South Africa, Togo, and Ukraine.

The objective of our evaluation was to determine whether the major components of Peace
Corps’ safety and security strategy for Volunteers function effectively and in accordance with
established standards and best practices. Our evaluation sought to determine whether:

    1. Volunteers receive relevant information on safety and security risks in their countries
       of service before their departure overseas and throughout their service.
    2. Peace Corps has provided Volunteers with accurate and relevant training on safety
       and security.
    3. Peace Corps staff ensured Volunteers were placed in appropriate, safe, and secure
       housing and work sites and made regular visits to monitor safety at each Volunteer’s
       site.
    4. Peace Corps staff reported and responded to safety issues and criminal incidents in
       accordance with agency and post policies.
    5. Peace Corps ensured that each post has developed and tested a detailed EAP to
       prepare for and respond to emergencies at post.
    6. Peace Corps’ agency-wide and office-specific strategic goals and performance
       indicators related to Volunteer safety and security meet agency and federal
       requirements.
    7. Peace Corps Safety and Security Officers have provided adequate support to country
       directors, as outlined in the Peace Corps Manual.

In order to encompass one full Volunteer cycle (typically 27 months), our period of review
covered the period January 2005 - June 2007. For the section on Peace Corps Safety and
Security Officers (PCSSOs), we expanded our scope to January 2003 - December 2006;
PCSSOs began issuing safety and security reports in 2003.

We reviewed the CIRF data for accuracy. We obtained CIRF reports submitted between
February 1, 2006 and June 20, 2007 from the ten posts in our sample. We compared the
data submitted to headquarters by the posts to the data maintained in the official CIRF
database to determine if the data maintained its integrity during transmission from overseas
posts to headquarters. We read the incident narrative in each CIRF report and compared
that information to the six data fields: date of incident, time of day, crime classification,
location, offender, and site information. We noted discrepancies when the narrative
conflicted with the data maintained in the official database at headquarters. In instances
where the narrative did not specifically address a data element, we relied on the post's
original transmissions. For example, if the narrative did not specifically say whether the
incident occurred at the Volunteer's site, but post staff selected "Yes" to the question "Did


Final Program Evaluation Report: Volunteer Safety and Security                                  3
the incident occur at the Volunteer's site?" we relied on the post's answer. We provided the
results of our analysis to the Crime Statistics and Analysis (CSA) staff, who responded to our
noted discrepancies. We made changes to our analysis of the CIRF data based on the
explanations and information provided by CSA.

We also reviewed relevant criteria, including: the GAO reports on Peace Corps’ Safety and
Security System published in 2002 and 2004; Peace Corps Manual sections 130 and 270; the
CIRF Users Manual; Office of Management and Budget (OMB) and Peace Corps guidance
on strategic planning; agency-wide guidance on the EAP and evacuation preparation; and
post-specific policies and procedures.

In addition, we reviewed other relevant media and documentation, such as the EAPs in
effect as of June 2007 for all Peace Corps posts; EAP test results for all posts in 2005 and
2006; site development and visit reports for the Volunteers in our sample; safety and security
information provided to Volunteers in e-mails, newsletters, and other formats; site locator
forms for Volunteers in our sample; PCSSO reports for Peace Corps posts from 2003 to
2006; Peace Corps training videos related to safety and security; and training curricula
developed by the posts in our sample.

We selected a sample of Volunteers based on their length of service, project focus, gender,
age, marital status, and ethnicity. We interviewed 208 of 1,066 Volunteers serving at the ten
posts in our sample, visited 176 of the Volunteers at their sites, and interviewed 50 of their
community partners. In addition, we reviewed the Department of State’s Consular
Information Sheets for each of the ten countries in our sample to determine the areas with
the highest safety risk to U.S. citizens and Volunteers based in or near those locations. We
also considered whether Volunteers were serving in urban, mid-sized, or rural communities
and their degree of isolation when selecting our sample.

Additionally, we reviewed 41 PCSSO trip reports (covering a four-year period from 2003 to
2006) to determine how frequently PCSSOs addressed the safety and security issues
identified under Peace Corps Manual (PCM) section 130 and whether gaps in coverage
existed.

We interviewed Peace Corps headquarters staff, including the Director, the Deputy Director,
the former Chief Compliance Officer, the Associate Director for Safety and Security, the
Chief of the Volunteer Safety and Overseas Security Division, the Social Science Analyst and
Data Analyst of the Crime Statistics and Analysis Unit, the Director of Congressional
Relations, the three Regional Directors, the three Chiefs of Operations, Safety and Security
Desk Officers (SSDOs), acting SSDOs, and country desk officers and country desk
assistants for the posts in our sample. We collected and analyzed safety and security
documents and data provided by headquarters offices.

Overseas, we interviewed PCSSOs, country directors, SSCs, training managers, and
programming staff. In addition, we interviewed other individuals in our sample countries,
such as managers of hotels used as Volunteer consolidation sites, managers of Volunteer
training sites, and a helicopter operator identified as a resource to extricate Volunteers in
emergency situations.



Final Program Evaluation Report: Volunteer Safety and Security                                  4
           RESPONDING TO CRIMES AND REPORTING AND
                 ANALYZING CRIME STATISTICS

On average, 1,262 crime incidents are submitted from 69 overseas posts to the CSA unit in
the Office of Safety and Security on an annual basis. 2

In February 2006, the crime incident reporting process changed as follows:

1) All crime incident data was collected using one application, the CIRF. Previously, data
   was collected using multiple forms and methods and reported to multiple offices.

2) Responsibility for ensuring that all posts were reporting assaults and property crimes
   accurately and in a standardized way was transferred to the Office of Safety and Security.
   One of the CSA staff's main responsibilities became to ensure that all posts were
   reporting assaults and property crimes accurately and in a standardized way for the
   agency. Previously data quality assurance for violent and non-violent assault crime
   reporting was performed by the Office of Medical Services.

3) Responsibility for reporting crimes at the post was transferred from the Peace Corps
   Medical Officers (PCMOs) to the country directors for violent crimes and the SSCs for
   non-violent crimes. After the implementation of the CIRF, the PCMOs who had been
   reporting crime incidents for approximately 15 years were now only involved in
   reporting incidents that had a significant medical component, such as rapes.

4) Property crimes were submitted to headquarters with incident details. In the past,
   property crimes had been submitted by the post at the end of the month to the Office of
   Medical Services as a tally that only reported the frequency and type of crime that
   occurred; details such as the location, time of day, and assailant were not required.

Some crimes against Volunteers were not reported within the timeframe prescribed
in the CIRF Users Manual.

The CIRF Users Manual stresses the importance of reporting all crimes in a timely manner
to appropriate Peace Corps and U.S. Department of State officials. According to the CIRF
Users Manual, when post staff are informed of a violent crime against a Volunteer, the
violent crime:

           …must be reported immediately to both the OIG and RSO [Regional
           Security Officer]. In the case that all required information…is not available,
           send in as much as is known and send additional information later.
           Immediate notification to the OIG and the RSO is the foremost priority.



2
    This is an annual average of the three-year period 2004 – 2006.


Final Program Evaluation Report: Volunteer Safety and Security                               5
According to the agency’s Violent Crime Protocol, all violent crimes must be reported by
post to headquarters immediately after (within 24 hours) the Volunteer reports the crime.
Although non-violent crimes were not covered by the agency’s Violent Crime Protocol, the
CIRF Users Manual states that non-violent crimes:

          … should be submitted [to CSA] as soon as possible. However, with non-
          violent crimes, it is permissible to take an extra day to collect as much
          information as possible before submitting the CIRF.

To account for this “extra day” plus weekends and holidays, CSA staff informed us that they
consider posts’ reporting of non-violent crimes within three days after notification by the
Volunteer as timely.

        Table 1. Average Reporting Times of the Ten Sample Posts
                                                                     Length of Time to Report Crimes Against Volunteers Using the CIRF


                                  60                                                                                                                                                                  58

                                  55

                                  50                                                                                                                                                                        48

                                  45
         Average Number of Days




                                  40

                                  35

                                  30

                                  25

                                  20

                                  15               12                                         11
                                  10        8                                                                                                              8
                                                                                          5          4
                                  5                         2                                                         2            3     3           2                         3              3
                                                                     1             1                            1                                                        0              0
                                  0
                                              ia                 a
                                                                                   bli
                                                                                      c        ali              ov
                                                                                                                  a
                                                                                                                                  oli
                                                                                                                                     a                al
                                                                                                                                                                         an
                                                                                                                                                                           d              d
                                                                                                                                                                                                      at
                                                                                                                                                                                                        u
                                          liv              aic                                M                                                     eg              il                  an
                                       Bo                 m                      pu                          old           on
                                                                                                                              g                 n                az                  ail            nu
                                                        Ja                    Re                         M                                   Se                                    Th             Va
                                                                           yz                                             M                                    Sw
                                                                        rg
                                                                     Ky
                                                                                                                Peace Corps Post

                                                                                                     Violent Crimes       Non-Violent Crimes




The aforementioned table shows the average number of days that it took the ten posts in our
review to report crimes. Between June 2006 and June 2007, six of the ten posts in our
sample had average reporting times for violent crimes that did not meet the agency’s
deadline. Five of the posts had average reporting times that did not meet the deadline for
non-violent crimes. 3 However, average reporting times can mask individual exceptions. For
example, PC/Bolivia on average reported violent crimes via CIRF within 12 days; in one
instance, that post did not report a robbery for 24 days. Even PC/Moldova, whose
reporting average met Peace Corps’ requirements, reported an aggravated assault via CIRF
within a three-day period rather than the one-day requirement. See Table 2.

3
  We analyzed the amount of time that lapsed between the date that the post first became aware of the crime
incident and the date that the post submitted the CIRF report. In most cases, the actual crime occurred at
least one day before a Volunteer reported it to the post.


Final Program Evaluation Report: Volunteer Safety and Security                                                                                                                                                   6
      Table 2. CIRF Reporting Times, June 2006 - June 2007*
        Post                                   Violent Crime                    Number of Days
        Bolivia                                    Robbery                            24
        Jamaica                                    Robbery                            11
        Kyrgyz Republic**                       Intimidation                           3
        Mali                           Burglary with Volunteer Present                60
        Moldova                              Aggravated Assault                        3
        Mongolia                             Aggravated Assault                        6
        Senegal                        Burglary with Volunteer Present                11
        Swaziland***                            Intimidation                           1
        Thailand                               Not Applicable                          0
        Vanuatu****                             Intimidation                         113
      *From our ten post sample, the violent crimes that took the longest to report.
      **PC/Kyrgyz Republic initially reported this incident as “Unknown,” but we determined that it should
      have been reported as “Intimidation,” in accordance with Peace Corps’ crime definitions.
      *** PC/Swaziland initially reported this incident as “Other Physical Assault,” but we determined that it
      should have been reported as “Intimidation,” in accordance with Peace Corps’ crime definitions.
      **** PC/Vanuatu initially reported this as Attempted Rape.


PC/Vanuatu took on average 58 days to report violent crimes and 48 days to report non-
violent crimes using the CIRF. In one instance, PC/Vanuatu took 113 days to file a CIRF
report on an incident that initially appeared to be an attempted rape. Even though CSA
reclassified the incident as an intimidation, it remained a violent crime under Peace Corps’
classification system. The crime warranted immediate attention by the OIG and the RSO
because it involved a threatening situation: a local man attempted to undress a Volunteer
against her will while they were alone in his car.

Timely reporting of crime incidents is essential so that Peace Corps staff, OIG criminal
investigators, RSOs, and local police officials can effectively investigate crimes against
Volunteers. The more time that elapses between the incident and victim’s contact with a
criminal investigator, the more details the victim may forget and the less likely that the
subject would be apprehended and a prosecution would be successful. In that vein, timely
reporting of non-violent crimes is also important to enhance correct classification of crimes.
An incident initially reported as a non-violent crime may later be reclassified as a violent
crime once received by headquarters and require subsequent investigative actions.
Some country directors informed us that they were not aware of the reporting deadlines,
particularly with regard to non-violent crimes. According to one country director, he
believed that there was no need to report non-violent crimes via the CIRF within a set
timeframe, since non-violent crimes were by definition less serious and did not trigger
involvement by the RSO and/or OIG. Another country director stated that his staff
generally waits for the Volunteer victim to submit a written incident report before
completing the CIRF report.

Peace Corps has no system in place to monitor the timeliness of crime incident report
submissions. According to the regional Safety and Security Desk Officers’ (SSDOs) position
description, SSDOs could monitor and regularly report on the timeliness of CIRF reports
generated by each post. Such responsibilities align with the SSDO’s duties to “provide
technical support to Regional senior management in developing, integrating, and monitoring


Final Program Evaluation Report: Volunteer Safety and Security                                                   7
Regional safety and security activities, trainings, data compilation and analysis, and other
relevant initiatives into the Volunteer Safety Support System….”


                  We recommend:

                  1. That the regional directors establish policies and
                     procedures to monitor the timeliness of crime incident
                     report submissions from the posts.


Peace Corps’ crime data was unreliable.

Our review showed that the data collected since the launch of the CIRF in February 2006,
had a high rate of unreliable data, and therefore, we could not rely on the agency’s crime data
to analyze crime trends or formulate recommendations for this evaluation.

We reviewed six data fields 4 vital to Volunteer safety and oversight of Peace Corps’ safety
and security in the 309 crime incidents reported (1,854 individual data fields) by the ten posts
in our sample (February 2006 - June 2007, see Table 3). The 309 reports represent 18% of
the 1,768 total crime incidents reported agency-wide. 5 We found that 291 (16%) of the data
fields posted inaccurate or inconsistent information as compared with the crime incident
summary written by post staff. See Table 4.

A number of federal agencies have stressed the importance of ensuring that data are reliable
and accurate enough to draw meaningful conclusions. According to GAO:

         Data are reliable when they are (1) complete (they contain all of the data
         elements and records…) and (2) accurate (they reflect the data entered at the
         source or, if available, in the source documents). A subcategory of accuracy
         is consistency. Consistency refers to the need to obtain and use data that are
         clear and well-defined enough to yield similar results in similar analyses. For
         example, if data are entered at multiple sites, inconsistent interpretation of
         data rules can lead to data that, taken as a whole, are unreliable. 6

We found that at least one major data element was missing or inconsistent with the crime
incident narratives written by post staff for 56% of all reported crime incidents in our
sample. See Table 3.


4
  The six data fields that we reviewed were: 1) day of the week the crime occurred; 2) hour of day the crime
occurred; 3) type of crime; 4) location of the crime; 5) relationship of the offender to the victim; and 6) site
information (i.e., whether the crime occurred at the Volunteer’s assigned site).
5
  The number of total CIRF reports was provided by the Crime Statistics and Analysis Unit of the Office of
Safety and Security. We did not verify the accuracy of the total universe of CIRF reports, because that task
would have been a labor-intensive process outside the scope of our review. This figure should be
considered with caution, because our analysis showed that the CIRF headquarters database did not record
17 (6%) of the 309 incidents in our sample as crimes, even though they should have been recorded as such.
6
  “Assessing the Reliability of Computer-Processed Data,” issued October 2002.


Final Program Evaluation Report: Volunteer Safety and Security                                                8
Table 3. Errors in Incidents Reported
  Post                           Number of              Number of incidents       Percentage of
                                 incidents                 with at least          incidents with
                                  reviewed                  one error            reporting errors
 Bolivia                             22                         14                     64%
 Jamaica                             31                         10                     32%
 Kyrgyz Republic                      40                        22                     55%
 Mali                                51                         38                     75%
 Moldova                             27                         12                     44%
 Mongolia                            40                         24                     60%
 Senegal                             48                         27                     56%
 Swaziland                           18                         11                     61%
 Thailand                            10                          2                     20%
 Vanuatu                             22                         14                     64%
 Totals                              309                       174                56% (average)


Table 4. Type of Errors by Data Field
 Data Field                  Total Number of             Number of Data       Percentage of Data
                               Data Fields               Fields Reported       Fields Reported
                                Reviewed                   Incorrectly            Incorrectly
 Day of the Week                    309                         32                   10%
 Time                               309                         71                   23%
 Crime                              309                         40                   13%
 Location                           309                         53                   17%
 Offender                           309                         72                   23%
 Site Information                   309                         23                    7%
 TOTALS                            1,854                        291             16% (average)


We provided CSA with a list of the errors that we found and described in this section. We
also provided them with corrected data, based on the incident narratives. CSA responded to
our analysis in writing. According to Peace Corps’ FY 2007 Performance and Accountability
Report (PAR) to Congress, CSA then ceased normal operations, reviewed over 1,300
incident cases completed in 2006, and immediately initiated action to correct the errors.

CSA has no written policies and procedures stating the type and frequency of quality
assurance activities.

We found that CSA staff performed some quality assurance checks, such as reviewing the
crime classification for each CIRF report and ensuring that no data fields requiring an entry
were left blank. They also conducted a manual reconciliation process with all posts early in
2007 to determine if the CSA unit had received all CIRF reports submitted by posts.
However, with 13% of crime incidents in our sample inappropriately classified in CIRF
headquarters database, additional quality assurance procedures are required. See Table 4.




Final Program Evaluation Report: Volunteer Safety and Security                                      9
We also noted that some electronic data was inadvertently changed during e-mail
transmission from the post to the CIRF headquarters database. For instance, posts in our
sample reported offenders as “Other” and this was erroneously translated to “Other PCV
[Volunteer]” in the CIRF headquarters database.

The CSA’s social science analyst informed the OIG that she did not know why the data
changed, but that it appeared to be a problem with the computer program that transfers the
data from the e-mail into the CIRF headquarters database. Rigorous testing of the CIRF
application and process of transferring CIRF incident reports into the CIRF headquarters
database prior to deployment of the system may have caught such transmission errors.

Post staff were provided with inadequate and inaccurate training on how to use the
CIRF.

The agency's decision to launch the CIRF at the end of 2005 appears to have left inadequate
time to train country directors and SSCs on the CIRF prior to its release. Approximately
138 staff members 7 new to the process of reporting crimes were suddenly required to report
crimes using the CIRF. CSA staff provided day-to-day support to post staff on corrections
to submissions and training on how to properly categorize a crime.

While CSA did send posts written materials, such as the CIRF User Manual, CIRF crime
definitions, and Frequently Asked Questions upon the release of CIRF, post staff were not
provided with a training forum where they could ask questions and practice filing CIRF
reports prior to the CIRF implementation on February 1, 2006. Since country directors and
safety and security coordinators were now responsible for reporting crimes, 8 training on how
to use the CIRF would have been especially advantageous because this was a new
responsibility for them.

During interviews, we were informed that some post staff had a difficult time transitioning
to the CIRF reporting format. We found that crime classification training was provided only
twice since the roll-out of the CIRF in February 2006. We did not find any training
materials advising posts on how to properly complete a CIRF report. According to the
posts in our sample, no country directors formally requested the PCSSOs to train post staff
on the use of CIRF. In our opinion, with at least three people 9 at each of the more than 69
Peace Corps’ posts worldwide authorized to submit CIRF reports, training all appropriate
staff to fill out incident reports consistently was crucial to promote data accuracy.

Some of the training materials provided to post staff on crime classification were
inconsistent with the way the incident should be recorded in the CIRF headquarters
database. For instance, if Volunteers leave property behind but make an unsuccessful
attempt to recover it in a reasonable period of time, CSA records the incident as a theft.
However, information posted on the Office of Safety and Security’s intranet site provides
contrary information; Figure 1 shows two Volunteers leaving a phone behind at a café.

7
  This total represents the country director and the SSC at each of the 69 overseas posts.
8
  Previously Peace Corps Medical Officers had the responsibility for reporting violent crimes against
Volunteers.
9
  The country director, the safety and security coordinator, and the Peace Corps Medical Officer.


Final Program Evaluation Report: Volunteer Safety and Security                                          10
According to the slide, such incidents need not be reported to headquarters; however, CSA
records similar events as theft.

Figure 2 informs staff responsible for reporting crimes against Volunteers to consider the act
of someone reaching through a window to take a Volunteer’s property from their residence
as burglary. However, CSA records this type of an incident as a theft in its database. As of
December 2007, this slide was still on the agency’s intranet.

                  Figure 1.


                                   Incident 8 Answers
                                                         What crime is this?
                                                         d. This is not a crime–
                                                                            crime–
                                                             because the PCV has
                                                             forgotten the phone and
                                                             left it at the café. Lost
                                                             items are not reported
                                                             through the CIRF.
                                                         When should this be
                                                         reported to HQ?
                                                         d. Because this is not a
                                                             crime,
                                                             crime, it is not reported
                                                             to HQ using the CIRF.

                                                                                     3




                  Figure 2.


                                   Incident 12 Answers
                                                     What crime is this?
                        A PCV wakes up one
                                                     c. Burglary with PCV present
                        morning and sees that his         – because the assailant
                        backpack has been moved           tore the window screen to
                        and that his iPod, his            illegally gain access to the
                        digital camera, and his cell      PCV’s residence while the
                                                          PCV was present. This
                        phone are missing. His            includes reaching through
                        door is still locked, but he      a winder to take property
                        sees that part of the             from the PCV.
                        window screen has been
                        torn away.                   Is this a violent crime?
                                                     a. Yes –Burglary with PCV
                                                          present is a violent crime
                                                          because the PCV’s
                                                          presence greatly
                                                          increases their risk of
                                                          harm.                      4




Final Program Evaluation Report: Volunteer Safety and Security                             11
As a result, some SSCs reported the perpetrator of crimes based solely on the Volunteers’
suspicions, while other SSCs based the offender information only on eyewitness accounts, an
admission of guilt, or tangible evidence. Still other SSCs filled in dates and times for
burglaries even when the incident narrative specifically stated that the Volunteer was away
from home and did not know the time or date the crime occurred.

CSA staff used resources not specified in the agency’s crime definitions to classify
crimes.

The CSA staff used external resources, such as Blacks Law Dictionary and the National Incident-
Based Reporting System Data Collection Guidelines, to help them determine how to classify crimes.
CSA’s use of these external resources means that the CSA unit may be classifying crimes
inconsistently. A lack of adherence to the agency’s standard classification system could
cause the agency’s crime trends to be recorded inaccurately.

An insufficient number of staff was assigned to collect and analyze agency crime
data.

The two-person CSA unit is responsible for collecting, analyzing, and preparing reports of
crime incidents against Volunteers. 10 In our opinion, the workload placed on the CSA unit
does not allow them sufficient time to verify data quality.

On average, the two-person CSA unit was checking seven to eight incidents on a daily basis,
contacting posts and providing training, developing formal training following the launch of
the CIRF, designing a new CIRF that would address the critical fixes requested but not
implemented in the initial CIRF pilot, and producing monthly and annual safety and security
reports. The CSA staff was also tasked with developing, distributing, analyzing and
reporting a major survey on safety and security that went out to nine PCSSOs during the
time of this evaluation.

The inclusion of property crimes in CIRF, which are much more frequent than assaults,
increased the amount of time it took post staff to report property crimes. This new
requirement significantly increased the amount of time it took CSA staff to check the fields
on an incident submission to ensure that the information was accurate. The CSA verified
incident fields that they deemed the most important to crime trend analysis and reporting.
The CSA staff recognized that verifying all data fields was not feasible given their workload.

We reviewed the timesheets for the two full-time CSA staff submitted between January 2006
and September 2007. After accounting for holidays and leave, we determined that the social
science analyst and the data analyst worked a combined additional 6.5 weeks beyond their
required hours during that timeframe. Because of the importance that crime data plays in
trend analysis and the oversight of the Volunteer safety and support system, Peace Corps
should strongly consider providing additional resources to CSA.



10
  One social science analyst and one data analyst comprise the staff of the agency’s Crime Statistic and
Analysis unit.


Final Program Evaluation Report: Volunteer Safety and Security                                             12
We are particularly concerned that Peace Corps management does not appear to recognize
the gravity of inaccurate crime reporting. This perspective is reflected by the agency’s
comments included in its 2007 PAR, which repeatedly referred to the errors as minor:

         Few of these errors were substantive and some of the errors are not agreed
         to by the Office of Safety and Security…In general, the crime trends and risk
         factors do not fluctuate significantly from one year to the next; therefore,
         minor errors in incident reporting are not likely to negatively impact the
         overall safety and security training at any given post.


                  We recommend:

                  2. That the Office of Safety and Security conduct an
                     independent review of agency safety and security incident
                     data for validity and reliability.

                  3. That the Office of Safety and Security implement written
                     policies and procedures that detail quality assurance
                     requirements for Peace Corps’ safety and security incident
                     data.

                  4. That the Office of Safety and Security establish an
                     allowable data error rate and systematically check safety
                     and security incident data fields for accuracy and
                     consistency.

                  5. That the Office of Safety and Security implement policies
                     and procedures to guide post and CSA staff in accurately
                     and consistently reporting safety and security incident
                     data.

                  6. That the Office of Safety and Security request a staffing
                     assessment to determine whether the Crime Statistics and
                     Analysis unit requires more personnel resources.

                  7. That the regional directors implement a process to ensure
                     that safety and security incident data is effectively
                     reviewed for accuracy and clarity by country directors
                     before submission to headquarters.




Final Program Evaluation Report: Volunteer Safety and Security                             13
         MONITORING, ASSESSING, AND DISSEMINATING
        INFORMATION ON THE SECURITY ENVIRONMENT

Upon receiving an invitation to serve in the Peace Corps, applicants receive a country-
specific Welcome Book. This book contains information on a variety of topics, including
safety and security, and is a key document to help them understand their country of service
and prepare for their experience overseas. We reviewed the Welcome Books for each of our
ten sample posts and found that they provided valuable safety and security information in
the following two major aspects.

    •      All of the Welcome Books contained a discussion of how potential Volunteers may
           need to change their lifestyles to maintain personal safety due to the cultural norms
           of their host country. They typically described issues that Volunteers might face
           due to their gender, religion, race, sexual orientation, and disability, along with tips
           to mitigate related safety risks.

    •      The Welcome Books also extensively described the support that the Peace Corps
           post, the OIG, and the U.S. Embassy’s Regional Security Officer can provide
           victimized Volunteers; for example, the Welcome Books stated that Peace Corps
           would assist Volunteers who choose to press charges, and may arrange for the
           retention of a local attorney to assist the local public prosecutor in such instances.

Our review also found that after Volunteers arrive overseas and complete their pre-service
training, the Peace Corps uses a variety of methods to disseminate safety information to
Volunteers on an ongoing basis throughout their service. All ten posts in our sample
included safety tips in newsletters that are distributed regularly to Volunteers. This
information covered issues such as maintaining personal safety in busy marketplaces, while
traveling, and during times of political unrest. At posts such as PC/Jamaica, PC/Thailand,
and PC/Swaziland, where cell phone usage is prevalent among Volunteers, several
Volunteers informed us that the safety and security coordinators (SSCs) send security
warnings via text message as soon as the post becomes aware of threatening situations.

The Welcome Books provide applicants with global risk factors for crime that may
not hold true for a Volunteer’s country of assignment.

Peace Corps Manual section 270.3.1 identifies monitoring, assessing, and disseminating
country-specific information as an integral component of the Volunteer Safety Support
System:

         V/Ts [Volunteers/Trainees] should have a clear and informed understanding
         of the potential safety and security risks in their countries of service. This
         information should include an overall assessment of potential safety and
         security risks to V/Ts, any country-specific conditions that may require V/Ts
         to adjust their lifestyles, and the support that V/Ts can expect from the
         Peace Corps.


Final Program Evaluation Report: Volunteer Safety and Security                                  14
Using the 2004 criminal incidence data provided by the Office of Safety and Security, we
constructed assault profiles for each of the ten countries in our sample and compared them
with the risk factors provided in the Welcome Books. (See Appendix A: Global Risk
Factors.) We found that most of the global risk factors for 2004 did not hold true for the
ten countries in our sample. Global averages can mask variations in risk factors and inflate
or understate their importance, depending on the country.

Because cultural norms vary between countries like Vanuatu and the Kyrgyz Republic,
Volunteers would be better informed if Peace Corps provided specific risk factors for their
countries of service. Even regional risk factors covering several countries that share cultural
similarities would provide potential Volunteers with a more accurate picture of the risks that
they may face overseas.

Communicating accurate, country-specific risk factors is important for two main reasons.
First, according to a statement on Peace Corps’ website, potential Volunteers should use this
information to help them “make informed decisions about whether Peace Corps service is
right for them and whether they are prepared to live at any site in their host country, where
local community members will be their primary support system.” Second, such information
can help Volunteers develop a personal safety strategy by advising them when and where to
heighten vigilance in cultures that may be unfamiliar to them.

Peace Corps’ Office of Communications has standardized much of the safety language in the
Welcome Books to minimize the burden on the editorial staff and the country desk units.
Peace Corps retains one editor to manage the publication process for nearly 70 Welcome
Books and relies heavily on the country desk units, who also directly support the posts, to
help edit and update the books.


                  We recommend:

                  8. That the Office of Communications include in the
                     Welcome Books (1) a statement providing the internet
                     link to the Safety of the Volunteer report and (2) a
                     statement that informs potential Volunteers that risk
                     factors in their country of service may vary from the
                     global risk factors.

                  9. That the Office of Volunteer Recruitment and Selection
                     include a statement in its invitation materials to encourage
                     applicants to review country of service risk factors in the
                     most recent Safety of the Volunteer report.




Final Program Evaluation Report: Volunteer Safety and Security                               15
                      SAFETY AND SECURITY TRAINING
According to Peace Corps’ Post Management Handbook, training is the most important
activity conducted by the agency in any given year. The Handbook stresses that “For a
country program to achieve excellence, it must start in PST [Pre-Service Training].” Peace
Corps also recognizes training as an essential element of the Volunteer safety support
system.

In recent Volunteer surveys and in interviews conducted for this evaluation, Volunteers
generally expressed satisfaction with safety and security training. In the 2004 and 2006
biennial Volunteer surveys conducted by Peace Corps, over 90% of Volunteers rated the
efficacy of safety and security at PST as “adequate,” “effective,” or “very effective.” Results
from the 2007 Close of Service Survey, which Volunteers complete just prior to returning to
the U.S., reflect similar results. (See Table 5.) Eighty-seven percent of the Volunteers we
interviewed echoed these survey results by expressing satisfaction with safety and security
training.

 Table 5. Volunteers Rating PST Safety and Security Training as “Adequate,”
 “Effective,” or “Very Effective”
  Source                                                   Percentage
  Biennial Volunteer Survey, 2004                             95%
  Biennial Volunteer Survey, 2006                             94%
  Close of Service Survey, 2007                               96%


Volunteers’ satisfaction can largely be attributed to the agency’s sound structuring of its
safety and security training. According to the 2007 Training Status Reports, all ten of our
sample posts reported that they molded their safety and security training around Peace
Corps’ global safety and security competencies.

These competencies require Volunteers to demonstrate their knowledge of a variety of key
safety issues, such as safety risk factors, dealing with unwanted attention and sexual
advances, and emergency action planning. Seven of the ten posts sampled required Trainees
to pass a written test on safety and security before moving to their sites.

Some posts have even begun testing Volunteers’ practical application of the competencies.
For example, PC/Jamaica gives Trainees a travel test, which requires them to document their
activities while taking public transportation to buy certain items. Afterwards, Trainees
participate in a debriefing session with training staff, who highlight important points like the
concealment of cash and grade the Trainees’ performance.

Peace Corps safety and security competencies did not include Volunteers and
Trainees knowledge of culturally appropriate ways to respond to safety and security
situations.




Final Program Evaluation Report: Volunteer Safety and Security                                16
While Peace Corps’ safety and security training largely received positive reviews from
Volunteers, we identified two areas that require the agency’s attention. Each highlights the
need to provide Volunteers with culturally appropriate safety and security training, as
required by PCM section 270.4.1:

         [Volunteers and Trainees] should be provided training that prepares them
         to adopt culturally appropriate lifestyles and exercise judgment that
         promotes safety in their home, at work, and while traveling.

The agency’s safety and security training competencies 11 do not directly address a Trainee’s
ability to identify culturally appropriate ways to respond to crimes, should prevention fail.
The competencies only state that Trainees should be able to “identify strategies to reduce
vulnerability” and “describe strategies to reduce the incident and impact of unwanted
attention or sexual advances.” The posts that we visited did not test or otherwise determine
the adequacy of Volunteers’ knowledge in this particular area.

Nearly all of the Volunteers we interviewed remarked that Peace Corps staff advised them of
situations that they should avoid to reduce their risk of crime. However, prevention
techniques can fail, and Volunteers could find themselves being victimized. We asked 46
Volunteers 12 to articulate culturally appropriate strategies 13 to help extricate themselves from
an actual crime situation. For example, several Volunteers serving in Vanuatu were able to
describe a strategy that staff had suggested. The PC/Vanuatu Volunteers recalled that
training staff advised them to vomit or urinate on themselves in the event of an imminent
rape; in that culture, this defense tactic could make victims appear unclean and undesirable
to the attacker. Such cultural-specific knowledge could help Volunteers gain enough
leverage in a crime situation to escape or foil the crime and could mean the difference
between a rape and an attempted rape. However, twenty-four (52%) Volunteers, serving in
eight countries in our sample, were unable to describe any strategies.


                  We recommend:

                  10. That the Office of Safety and Security revise the Pre-
                      Service Training Safety and Security competencies to
                      include demonstrating culturally appropriate ways to
                      respond to a crime situation.




11
   The Pre-Service Training Safety and Security Competencies are posted on VSOS’s intranet site.
12
   This issue arose during the course of our field work and we were unable to ask all Volunteers in our
sample this question.
13
   A culturally appropriate strategy in the U.S. might be to yell “Fire” or “9-1-1” rather than “Help,” as the
former phrases are more likely to garner immediate attention from passers-by.


Final Program Evaluation Report: Volunteer Safety and Security                                              17
    DEVELOPMENT, MONITORING, AND INSPECTION OF
                 VOLUNTEER SITES

Not all posts have effective and measurable criteria for identifying appropriate
Volunteer housing.

PCM section 270.5.2 states that country directors are “responsible for establishing safety and
security criteria for prospective V/T sites [and] … establishing procedures to ensure that
prospective sites meet the criteria before a V/Ts arrival at site.”

The documents and training currently provided to overseas staff by the agency do not
adequately define what constitutes effective criteria or provide appropriate examples of
measurable criteria. The Program and Training Booklet (Book Five), the Post Management
Handbook (2003), and the Site Development Toolkit stress the importance of developing
criteria for site selection, but do not clearly state that criteria specify a standard that must be
met. According to the Site Development Toolkit:

         The criteria for selecting sites will vary from one post to another. For
         example, secure housing at one post may mean solid core doors and dead bolt
         locks on all outside doors …, while at another post these precautions are
         neither available nor necessary given the security situation.

Six of the ten posts that were included in our sample did not have adequate criteria for
evaluating housing and sites for Volunteers. If a post does not have specific site
development criteria, staff members could judge a site’s suitability differently. For example,
PC/Mali’s housing criteria specifies that Volunteers must have “access to clean drinking
water throughout the year (pump, covered well, spigot) [and] water sources should be no
more than 800 meters from PCV lodging.” In contrast, PC/Jamaica’s housing criteria
provides that staff must ensure that “safe water be available at a Volunteer’s site;” however,
the criteria does not specify what kinds of water sources are acceptable or how far away the
water source can be from the Volunteer’s house before the site is unacceptable.

In cases where criteria are not measurable by quantitative standards, policies and procedures
should provide alternative means to test whether a condition is sufficient. For example,
most posts require that housing be made out of “solid structures.” In the absence of a
quantifiable measure for “solid,” alternative guidance can be provided to assess whether the
structure will provide a safe dwelling for the Volunteer. PC/Mali has moved toward
providing staff with additional guidance by offering basic instructions on how to test
whether doors and windows are secure.

At the ten posts that we visited, we found that some posts had procedures to ensure that
housing is inspected by a staff member prior to the arrival of the Volunteer. In Senegal, the
staff member who brings a new Volunteer to his/her site after training must inspect the
house. If the house does not meet PC/Senegal’s housing criteria, the staff are prohibited
from leaving the Volunteer at the site. PC/Senegal’s procedure appears to be effective


Final Program Evaluation Report: Volunteer Safety and Security                                   18
because only three Volunteers, of the 15 who responded to our questions about housing,
reported that their homes were not ready for them.

In Thailand, the housing checklist goes beyond checking boxes. The person who completes
the housing inspection must provide descriptions of critical elements, such as the condition
and materials used in the doors and windows. When verifying whether cell phone service is
available, the person must provide the names of the cell phone services that work in the area
and assess the strength of the signals. These additional descriptions can facilitate decisions
when a site almost meets criteria and a decision has to be made to grant an exception.

We found that not all posts had procedures for granting exceptions to minimum standards
or identifying “deal breakers.” Undoubtedly, staff encounter sites in which Volunteers have
an opportunity to work with a committed community or organization, but the housing
options may not meet all of the post’s criteria. One approach is to develop a system for
ranking required elements. PC/Vanuatu had developed a simple scoring system. During a
site development visit, the staff rate twenty elements on a scale of one to five under the
categories of community awareness, safety and security, and community preparedness.

Some Volunteer housing did not meet the post’s own criteria for Volunteer housing.

Peace Corps Manual section 270.5.0 states:

         Each V/T site should be inspected before the V/T’s arrival to ensure
         placement in appropriate, safe, and secure housing and work sites. Site
         selection should be based on established safety and security criteria that
         reflect consideration, among other things: any relevant site history; access
         to medical, banking, postal, and other essential services; availability of
         communication, transportation, and markets; different housing options and
         living arrangements; and other V/T support needs.

At 122 (74%) of the 163 sites, Volunteers whom we asked stated that their housing was
ready for them when they arrived at their sites. Of the 26% of the Volunteers whose
housing was not ready, some had to find temporary housing or reside in houses that did not
yet meet the posts’ safety and security criteria. Most common among the unfinished items
were no bars on the windows, doors without functioning locks, and unfinished pit latrines.
We found examples that included the following:

    •    In Vanuatu, a Volunteer’s house did not have a private area for bathing for his first
         few months at site. At the time of the OIG’s visit, he did not have locks on his
         windows. Two Volunteers in Vanuatu stated that they were allowed to live in houses
         with unsecured windows and doors.

    •    In Thailand, nine Volunteers stated that their housing was not ready for them
         because the communities had not finished preparing their houses or because their
         houses did not meet the post’s criteria and they had subsequently requested
         alternative housing.



Final Program Evaluation Report: Volunteer Safety and Security                              19
Forty percent of the Volunteers’ houses that we visited did not meet the posts’ own criteria
at the time of our visit (see Table 6). Common deficiencies that we found included the lack
of screens on windows (in malarial countries), unsecured doors on pit latrines, leaking roofs,
and gaps between walls and ceilings or roofs. Specifically, we found the following:

    •    In Swaziland, nine of the 12 houses that failed to meet the housing criteria had
         latrines that lacked functioning and lockable doors. In several cases, the doors to the
         latrines had fallen off the hinges. One male Volunteer who was placed in a housing
         compound with an unsecured pit latrine was attacked by an African Rinkhals cobra
         in the latrine.

    •    In Thailand, a Volunteer lived in a house with a gap between the top of the wall and
         the roof that was wide enough to allow a small person to crawl through the gap and
         gain entry into the Volunteer’s home. The Volunteer told the OIG that cats crawled
         through this space and into her house at will and once she found a dead cat in her
         kitchen. The OIG observed that the concrete walls had cracks running through
         them that were sufficiently large to question the structural integrity of the building.

    •    Two female Volunteers in Vanuatu stated that they used a bucket at night instead of
         their outdoor toilets. One of the toilets was approximately 50 meters from the
         Volunteer’s house, even though PC/Vanuatu’s housing criteria requires that outdoor
         toilets be no more than 10 meters from the house.

        Table 6. Housing Status*
                          Housing was ready when the              Housing met the post’s
        Country
                           Volunteer arrived at the site              requirements
        Bolivia                        80%                                73%
        Jamaica                        79%                                82%
        Kyrgyz Republic                95%                                58%
        Mali                          54%                                 85%
        Moldova                       100%                                90%
        Mongolia                       83%                                67%
        Senegal                        81%                                31%
        Swaziland                      67%                                33%
        Thailand                       36%                                25%
        Vanuatu                        47%                                53%
        Average                       74%                                 60%
         * From our ten sample posts.


We also found that some Volunteers were being placed in sites and houses that put their
safety and health at risk as follows:




Final Program Evaluation Report: Volunteer Safety and Security                                20
     •   In Vanuatu, female Volunteers are subject to a local custom known as “creeping.” 14
         At least one female Volunteer was placed in a house with unsecured windows; in lieu
         of metal locks, she had secured her windows with nailed chicken wire. Two male
         Volunteers also had unsecured windows.

     •   In Senegal, a female Volunteer woke up in the middle of the night to find a young
         man attempting to crawl under her mosquito net and into her bed. When the
         Volunteer screamed, her host family woke up and chased the man away. She was
         frightened, but not injured. The intruder lived next door to the Volunteer.
     •   In Thailand, a Volunteer enters and exits her house through a window because she
         does not have the keys to her locked front door. Her back door swelled shut due to
         the rain. Another Volunteer’s windows did not have the required bars on them.


                  We recommend:

                  11. That the regional directors provide the posts with:
                      • Examples of well-developed post safety and security
                         criteria.
                      • Examples of well-designed checklists for use in
                         verifying whether post safety and security criteria have
                         been met.
                      • An explanation of how to rank site and housing
                         criteria, including procedures for making exceptions
                         to criteria.

                  12. That the regional directors establish a system to ensure
                      that posts develop and follow housing policy standards,
                      such as inspecting every house before a Volunteer moves
                      in, to ensure appropriate, safe, and secure Volunteer
                      housing.



         PEACE CORPS SAFETY AND SECURITY OFFICERS

PCM section 130 identifies the PCSSOs’ areas of responsibility as:

         •   Conduct Security Assessments
         •   Review safety training in pre-service and in-service training
         •   Train trainers and training managers
         •   Train Volunteer wardens, local guards, and staff
         •   Emergency Action Plan review and testing

14
  “Creeping” is a more aggressive form of “peeping tom;” the person doing the “creeping” expresses an
interest in a person by knocking on their bedroom window or calling for them to come out of their house.


Final Program Evaluation Report: Volunteer Safety and Security                                         21
         •   Develop security incident response procedures
         •   Coordinating with Regional Security Officers
         •   Provide crisis management support
         •   Collect and disseminate best practices

PCSSO responsibilities also include assisting posts in other areas of safety and security
covered under PCM section 270, such as developing site selection and monitoring
procedures and dissemination of information.

We found that PCSSOs were assisting the posts on a wide range of safety and security issues,
as required of them under PCM section 130. PCSSOs provided substantial support in the
areas of Volunteer safety training, training of SSCs and other staff, reviewing and testing
EAPs, and site selection and monitoring procedures.

PCSSOs were also responding to the unique needs of their posts. For example, one PCSSO
worked with PC/Vanuatu to develop strategies to protect female Volunteers from
potentially dangerous forms of sexual harassment. In the EMA region, PC/Kyrgyz Republic
was visited by the PCSSO twelve times over a four-year period, assisting them with setting
up policies and procedures and training staff and Volunteers. In the Africa region,
PC/Swaziland requested assistance from their PCSSO to assess Volunteer safety concerns.

Senior regional management has not adequately monitored the implementation of
PCSSO recommendations.

While in 2007, the agency has taken incremental steps toward monitoring PCSSO
recommendations, management could not provide assurance that posts’ safety and security
deficiencies, as identified by the PCSSOs, were being addressed by the country directors.
The regional directors stated that they discuss PCSSO recommendations with their country
directors, but neither the Office of Safety and Security or regional management could verify
the extent to which country directors implement PCSSO recommendations.

According to the Chief , VSOS, it is not the role of the Office of Safety and Security or the
PCSSOs to act as compliance officers. The PCSSOs serve as advisors or consultants to the
posts and are not responsible for ensuring that their recommendations are implemented by
the country directors. According to several PCSSOs, putting them in a compliance role
could jeopardize their relationship with the posts. PCSSOs serve at the pleasure of the
country director; they must wait for an invitation from the country director or the region and
then the country director controls the scope of work for a PCSSO visit.

The extent to which regional directors and the SSDOs monitor PCSSO trip reports and
recommendations, and implement PCSSO recommendations varies. One region relies on
the SSDO to monitor trip reports and alert the regional director as necessary. Another
regional director reads the PCSSO reports, checks a matrix of recommendations completed
by the SSDO, and raises issues with the country directors in monthly conference calls. In
the third region, the SSDO stated that the region does not track PCSSO recommendations.




Final Program Evaluation Report: Volunteer Safety and Security                              22
In our opinion, regional management has not exercised its supervisory authority over the
posts to ensure that PCSSO recommendations are implemented by the country directors.
One regional director acknowledged that it is the region’s responsibility to follow-up on the
PCSSO recommendations because “the region controls the resources required to comply
with many of the PCSSO recommendations.” She stated that if a country director disagrees
with a recommendation, “at this point they ignore it.” Another regional director expressed a
reluctance to make PCSSO recommendations mandatory. In his view, PCSSOs do not have
a sufficient level of professional safety and security training to be able to make mandatory
recommendations.

Regional directors are beginning to acknowledge that they must take more responsibility to
implement PCSSO recommendations and establishing clear expectations for the country
directors in terms of PCSSO visits and activities to be conducted during their visits. One
regional director has instructed the country directors to have annual PCSSO visits and that a
complete review of PCM section 270 be performed annually. At the request of the regions,
the PCSSOs are beginning to classify their recommendations into categories: critical
recommendations that should be implemented, recommendations that require funding, and
professional guidance.

In mid-2007, the SSDO for the Africa region developed a matrix for tracking PCSSO
recommendations and documenting actions taken by the posts to address the deficiencies.
The matrix includes the date of the PCSSO visit, recommendations, whether the
recommendation is a formal requirement, and actions taken by the post.

The agency has not developed policies and procedures 15 for PCSSO visits and
recommendations. When the agency does establish these policies and procedures, it is
reasonable to expect the Office of Safety and Security to play more than an advisory role.
One SSDO stated that the regions are looking to the Office of Safety and Security to take a
leadership role and assist the agency in developing guidance on how to “analyze the PCSSO
recommendations and develop management priorities to address Volunteer safety and
security in a strategic way.”

According to PCM section 130.4.1:

         The Office of Safety and Security coordinates and promulgates all world
         wide Peace Corps Safety and Security policies save for Information Systems
         … [and] the Office institutes, reviews, refines and recommends security
         policy to the Director of the Peace Corps.

The Chief, VSOS stated that he is working with the three regions on new guidelines for
PCSSO visits to posts, including a new report format and classification of recommendations.

Widespread agreement exists within the agency that the establishment of the PCSSO
position has contributed to the safety of the Volunteers. Two of the three regional directors

15
  According to the Government Accountability Office, monitoring of internal controls should include
policies and procedures for ensuring that the findings of audits and other reviews are promptly resolved.



Final Program Evaluation Report: Volunteer Safety and Security                                              23
attributed the higher levels of compliance with safety and security policies by posts to the
work of the PCSSOs. This confidence in the value of the PCSSOs has not translated into a
willingness of the regions to monitor compliance by country directors, measure the impact
of PCSSOs, or assess their cost-effectiveness. In fiscal year 2006, the nine PCSSOs at
overseas posts cost the agency $1,360,700.


                  We recommend:

                  13. That the regional directors implement a tracking and
                      monitoring system for PCSSO recommendations.

                  14. That the Office of Safety and Security assist the regions
                      to develop methods for evaluating PCSSO
                      recommendations and establishing management priorities
                      for addressing Volunteer safety and security.



              PLANNING FOR EMERGENCIES THROUGH
                   EMERGENCY ACTION PLANS
EAPS did not always contain essential elements necessary to promote Volunteer
safety.

Our review of the Emergency Action Plans (EAPs) developed and used by 65 Peace Corps
posts 16 in 2007 disclosed that the majority of EAPs needed improvement in a number of
essential areas, as outlined in the following table. While nearly all EAPs incorporate other
information needed to facilitate emergency planning, such as a description of the posts’
emergency communication systems, an outline of Volunteer and staff responsibilities at each
stage of an emergency, and a description of at least one evacuation plan, the following
missing elements could cause confusion among staff and Volunteers during times of
emergency and ultimately hinder Peace Corps’ efforts to account for, consolidate, and safely
evacuate Volunteers.




16
  As of December 2007, Peace Corps Volunteers were serving at 67 overseas posts. However,
PC/Cambodia and PC/Ethiopia were not open in 2005, one of the years for which we reviewed EAP test
results. Since we did not evaluate the performance of these two posts in our review of EAP testing, we
excluded them from consideration in this finding.


Final Program Evaluation Report: Volunteer Safety and Security                                           24
             Table 7. Post EAPs with Missing Elements
              Element                            Percentage
              Clear Code Words                      26%
              Realistic Trip Wires                  55%
              Clear Communication Tree              46%
              Maps to Consolidation Points          54%
              Charter Flight Contacts               35%
              Ground Transportation Contacts        95%


Code Words 17
Code words inform Volunteers when to move to consolidation points or evacuate the
country. They become particularly important during the most extreme emergencies, which
often result in the disruption of telephone service, forcing Volunteers to rely on high
frequency or public radio for instructions from Peace Corps staff. Twenty-six percent of
EAPs used ambiguous code words and phrases that could cause confusion and/or fail to
alert Volunteers of actions they should take in an emergency.

During a recent EAP test, PC/Swaziland sent Volunteers a sentence-long text message in
which one of the following code words was hidden: “record,” “tape,” “CD,” and “i-Pod.”
According to the SSC and the former country director, several Volunteers did not realize a
test had commenced, since the code words were too commonly used in everyday language to
alert them of the emergency test.

In our opinion, code words such as “bicycle,” “motorcycle,” and “taxi” that are widely used
throughout Peace Corps EAPs could cause similar confusion. We noted that the EAP for
PC/Mozambique included one group of code words, while the corresponding “short
version” of its EAP, used as a quick reference by Volunteers at their sites, listed different
code words for the three most critical phases of the EAP.

If code words are not clear, simple, distinct, and commonly understood by all Volunteers
and staff, Volunteers could find themselves left in harm’s way and/or unsure of the actions
that they should take during the most threatening situations or emergencies.

Trip Wire
Trip wires are events that the post has determined raise concern for Volunteer safety and
require the post to take emergency action. Fifty-five percent of EAPs contained inadequate
or no trip wires to assist staff in deciding when to activate a phase of the EAP. For example,
trip wires that call for the activation of the consolidation phase of PC/Suriname’s EAP
include “civil war” and “no transportation due to civil war.” Such trip wires anticipate the
movement of Volunteers from their sites to consolidation points while civil war rages and
transportation options are severely limited. More effective trip wires would identify political
events likely to precede a civil war and require, to the extent possible, that Volunteers
consolidate and/or evacuate prior to the outbreak of crisis situations.


17
     Code words are not a required EAP element, but 49 of the 65 EAPs we reviewed used them.


Final Program Evaluation Report: Volunteer Safety and Security                                 25
Utilizing trip wires is a best practice recognized by the U.S. Department of State: each U.S.
Embassy is required to develop emergency trip wires. With regard to Peace Corps, trip wires
could be particularly useful during times of staff turnover to help new or acting staff
determine when and how to activate the EAP.

Clear Communication Tree
The Standard Operating Procedures for the Emergency Action Plan Template states:

         The Emergency Communication System must have the ability to
         communicate with all PCVs within a time frame defined by post. It is
         vital that a communication tree be established….

Appendix B of the Standard Operating Procedures states:

         In this section, the “Communications Tree” (with names) is specified and
         included. This and the [Volunteer] roster are the most frequently
         updated documents among the appendices. Updated versions need to be
         sent to the [Country Desk Unit] in PC/Washington.

However, 46% of EAPs that we reviewed did not clearly demonstrate how emergency
communication would flow among Peace Corps staff members or between staff and
Volunteers. For example, PC/Azerbaijan’s communication tree does not clearly indicate
how staff would contact each Volunteer. Instead, it shows multiple individuals contacting
unspecified groups of Volunteers. See Figure 3.

In contrast, PC/Burkina Faso’s communication tree clearly shows which staff are
responsible for contacting geographic groups of Volunteers (see Figure 4). In a subsequent
EAP appendix, PC/Burkina Faso compliments its communication tree with a Volunteer
roster that provides the names and contact information for each Volunteer by region.

Without a clear communication tree, Volunteers might not receive all emergency messages in
a timely manner, potentially resulting in confusion at the worst possible time – the height of
an emergency.

Maps to Consolidation Points
According to the Standard Operating Procedures for the Emergency Action Plan Template:

         Although [Volunteers] will know how to get to the town where their
         consolidation point is located, a map of the specifics (to the hotel or the
         [Volunteer] warden’s home, etc.) will be helpful…. Again, a consolidation
         test will ensure [Volunteers] know their consolidation points.

Our evaluation disclosed that fifty-four percent of EAPs did not include street maps or
included unreadable maps to Volunteers’ consolidation points. This matter is particularly
troubling because GAO also noted this deficiency in its 2002 report. Instead of street maps,
some posts’ EAPs included maps that showed only the city or town where Volunteers were
expected to consolidate. Without adequate maps, new Volunteers could find themselves in



Final Program Evaluation Report: Volunteer Safety and Security                              26
Figure 3 PC/Azerbaijan’s EAP Communication Tree                                  Figure 4 PC/Burkina Faso’s EAP Communication Tree



                                                                 Unclear who
                                                                 contacts each
                                                                                   Clear flow of
                                                                   Volunteer
                                                                                  communication




Final Program Evaluation Report: Volunteer Safety and Security                                                                       27
unfamiliar areas or unsure of the location of their consolidation sites when emergencies like
natural disasters or civil strife unfold around them.

In a February 6, 2003 memo to all country directors in Africa, the Regional Director for
Africa highlighted the importance of this issue for yet another reason: “[D]o we have
adequate maps to the consolidation points so that a military helicopter could locate the
[Volunteers] if necessary?”

Charter Flight Contacts
EAPs generally included a statement anticipating the use of such transportation options,
such as: “Due to the number of Volunteers in [the country], it is not feasible to move them
all overland using Peace Corps vehicles. Transportation options include: Peace Corps
vehicles, hired vehicles (trucks, vans, buses), and commercial vehicles (buses, taxis, kombis),
charter aircraft, and commercial aircraft.”

However, our evaluation found that 35% of EAPs did not include the contact information
for charter flights, and 95% did not provide the contact information to hire ground
transportation in an emergency.

In the Kyrgyz Republic, 36 Volunteers were left “stranded” in one region during protests
following parliamentary elections, according to a PCSSO report covering the period March
21-28, 2005. The post had relied on the governor of this region to help evacuate Volunteers
by airplane. After the opposition took control of the local airport, this option was
eliminated, and the post had not identified an alternate means to move Volunteers out of the
area. As a result of this incident, as of October 2007, PC/Kyrgyz Republic was one of only
three Peace Corps posts worldwide with an EAP containing contact information for drivers
and ground transportation companies that could be called upon in an emergency.

Without including contact information for non-public modes of transportation in the EAPs,
the agency has no assurance that posts have explored and identified transportation
alternatives or that such options could be called upon in short notice of an emergency.

We found instances of incomplete EAPs, which arose in part to them not being consistently
reviewed using the requirements outlined in Standard Operating Procedures for the
Emergency Action Plan Template. According to a Chief of Operations, regional staff do not
have the expertise to adequately review the content of EAPs. This individual noted that the
PCSSOs possess the expertise to catch problems like ambiguous code words, impractical trip
wires, or even poor evacuation routes that someone without country-specific knowledge
might miss.

If post or regional staff are unable to adequately review the EAP, the regional director could
instruct country directors to include an EAP review and update in the scope of work as a
part of PCSSO visits. Alternatively, the regions could work with the Office of Safety and
Security to develop a training program for regional staff to better understand and assess the
adequacy of individual EAPs.




Final Program Evaluation Report: Volunteer Safety and Security                               28
                  We recommend:

                  15. That the regional directors ensure that all EAPs are
                      reviewed and revised to contain:

                       •   Clear code words (if code words are used).
                       •   Logical trip wires that anticipate the most likely
                           emergencies and posts’ planned actions.
                       •   Communication responsibilities and contact
                           information.
                       •   Readable street maps to Volunteers’ consolidation
                           points.
                       •   Contact information for all means of emergency
                           transportation identified in the EAP, including charter
                           flights and ground transportation.

                  16. That the Office of Safety and Security develop and
                      administer safety and security compliance training to all
                      regional personnel responsible for reviewing MS 270
                      documents, including EAPs and MS 270 compliance
                      reports.


Peace Corps did not ensure that emergency action plans were consistently tested in
accordance with agency policy or under realistic conditions.

According to PCM section 270.7.2:
         Under the direction of the CD [country director], the EAP must be reviewed
         and tested annually to identify areas that may need revision. Such testing
         should include, at a minimum, the adequacy and reliability of the in-country
         communication network and the process for confirming the course of action
         to be taken by [Volunteers and Trainees] and staff at each potential stage of
         an emergency.

Because emergencies can arise at any time and can affect Volunteers in various
locations, testing only selected Volunteers and staff on an annual basis is not
sufficient. Untested Volunteers and staff may not be prepared to respond to the
wide variety of safety threats recognized in these posts’ own EAPs, ranging from
terrorist attacks to epidemic outbreaks. See Appendix B.

Our review disclosed that 60% of all Peace Corps posts did not schedule an evacuation test
in their most recent EAP. We were unable to determine if the remaining 40% of posts
completed the scheduled evacuation tests, because very few posts submit evacuation test
results to Peace Corps Headquarters. We noted that the completeness of the EAP test
reports varied from post to post.




Final Program Evaluation Report: Volunteer Safety and Security                           29
Furthermore, our review found that country directors and their staff did not always submit
EAP test and activation reports to Headquarters using the template form, as required. The
former Peace Corps Director in a March 5, 2004 memo to all country directors wrote,
“Utilization of [the EAP template and Standard Operating Procedures] will establish
consistency, ease of use, and improved understanding and communication between posts
and headquarters.” This form greatly facilitates Safety and Security Desk Officers’ ability to
track various facets of EAP tests, including which EAP stage was tested, when the test took
place, who participated, how the test was conducted, whether testing occurred under varying
conditions, and which methods of communication were used.

Additionally, we found that 5% of posts in 2005 and 12% of posts in 2006 were unable to
provide documentation that all Volunteers participated in at least one EAP communication,
consolidation, or evacuation test. This is contrary to PCM section 270.7.2, which requires
posts to annually test “the process for confirming the course of action to be taken by V/Ts
and staff at each potential stage of an emergency,” including the evacuation stage.

To effectively perform these tests, some posts use table top exercises requiring participants
to deal with challenging scenarios that could compromise their safety in emergency
situations. At other posts, Volunteers and staff demonstrate their understanding of the EAP
process by actually traveling to consolidation and evacuation points as quickly and safely as
possible. Absent these or similar tests, Peace Corps has no assurance that all Volunteers,
Trainees and staff have the knowledge and ability to safely evacuate the country in an
emergency.

Varying Conditions
We found that 35% of posts did not report testing their EAPs under varying conditions
from 2005 to 2006, as required by PCM section 270.7.0c. For the purpose of this analysis,
we defined a “varying condition” 18 as any non-ideal situation articulated in the post’s test
results, such as tests that occurred outside of office hours, excluded the use of cell phones,
or happened when a large number of Volunteers were away from their sites. Testing the
EAPs in this manner allows Peace Corps to fix critical weaknesses in its communication
network and evacuation plans prior to the onset of actual emergencies. Posts that test under
optimal or unchanging conditions risk being unable to account for or safely evacuate all
Volunteers during an actual crisis.

Cell phones
Our review disclosed that in 2005 and 2006, at least 25% of all Peace Corps posts did not
conduct an EAP test that excluded the use of cell phones. This figure is likely to be higher,
because we were unable to determine the communication method used by 62% of all posts
due to inadequate documentation.

While we believe that testing the Volunteer cell phone network on an occasional basis is
reasonable, relying on cell phones to conduct EAP tests is problematic, as this
communication method has proven unreliable even during localized emergencies in the
United States. For instance, according to the Minneapolis-St. Paul Star Tribune, the surge in
18
  The Peace Corps has no policies and procedures describing how to conduct evacuation tests or how to
meet the requirement that tests occur under “varying conditions.”


Final Program Evaluation Report: Volunteer Safety and Security                                          30
cell phone traffic following the Interstate 35 bridge collapse on August 1, 2007 blocked calls
for hours, prompting police to ask people to cease using their cell phones. The article
articulates a lesson that Peace Corps posts would be wise to heed: “The Minneapolis bridge
collapse has illustrated the ironic twist to cell phones: Just when people need them most,
they might not work.”

Although Peace Corps has an excellent track record of safely evacuating Volunteers in an
emergency, it is our opinion that only unwavering vigilance and sound preparation can truly
promote Volunteer safety in an actual emergency. As cell phone technology spreads
throughout the developing world, more traditional means of communication, like passing
messages through public bus drivers or using high frequency radios may become less
common. However, because advanced technology can actually be less than reliable in an
emergency, Peace Corps should develop and regularly test ways to reach Volunteers and use
the results of those tests to revise its EAPs accordingly.


                  We recommend:

         17. That the regional directors establish a system to ensure that all
             posts test their EAPs annually, including testing the EAPs under
             “varying conditions.”


Site locator forms lacked essential elements and did not always provide enough
information to locate Volunteers in a timely manner.

An essential element of Peace Corps’ emergency planning is the ability to communicate with
and locate all Volunteers quickly enough to keep them from harm’s way. To that end, Peace
Corps requires all Volunteers to complete a site locator form, which should include a map
and directions to their site; a primary, secondary, and tertiary means of communication;
contact information for local medical facilities and police stations; and other relevant items.
We reviewed 160 site locator forms from Volunteers in our sample and found that they did
not consistently meet these standards, as shown in Table 8.

      Table 8. Site Locator Forms Missing Elements
       Missing Element                                                  Percentage
       Adequate Maps and Directions to Volunteers’ Sites                   37%
       GPS Coordinates of Volunteers’ Sites                                80%
       Non-cell Phone Contact Information for Volunteers                   13%
       Information on Local Police Post                                    38%
       Information on Local Medical Facility                               21%


Adequate Maps and Directions to Volunteers’ Sites
During our visits to Volunteers’ sites, we found that 37% of the site locator forms did not
provide adequate maps and directions to allow us to locate the Volunteers’ homes without
assistance. According to language in the forms themselves, they should provide directions to



Final Program Evaluation Report: Volunteer Safety and Security                              31
someone who has never visited the Volunteer’s site and might arrive at night in response to
an emergency. Figure 5 shows one example of a map that was not drawn with sufficient
detail to direct us to the Volunteer’s residence. The map shows no landmarks, and the
accompanying directions did not adequately describe how someone could find her site
having never been there before.

                   Figure 5. Site Map Drawn by Volunteer




In situations when public transportation ceases to operate, Peace Corps staff or third parties
like military personnel may be unable to quickly locate and extract Volunteers from
emergency situations if the site locator forms contain inadequate directions. For example,
OIG evaluators had to ask for directions even though the Volunteer accompanied us to his
site. Not only were the directions on his site locator form inadequate, but the Volunteer was
unfamiliar with the route taken by car, since he usually biked on paths to reach his site.

GPS Coordinates of Volunteers’ Sites
GPS coordinates could help helicopter operators and staff equipped with GPS devices to
locate and extract Volunteers quickly in an emergency.
We spoke with a helicopter owner who PC/Vanuatu planned to call upon in the event of an
emergency. He informed us that no flight maps exist for Vanuatu, and without GPS
coordinates, he would be forced to rely on the site locator form and a topographical map of
the country to locate a Volunteer’s site, which could waste precious minutes or even hours
during a safety or medical emergency. The pilot also expressed concerns of running low on
fuel if he were unable to locate a remote Volunteer quickly. The pilot only knew of two
locations where he could refuel in the entire country.

Our review found that 80% of site locator forms did not include global positioning satellite
(GPS) coordinates of Volunteers’ sites. This should not be surprising since the majority of
posts do not have GPS units and currently the agency does not allow mapping software to
be installed on post computers. The benefit of quickly locating a Volunteer’s site in an
emergency appears to far outweigh the cost of handheld GPS devices, which can be


Final Program Evaluation Report: Volunteer Safety and Security                             32
obtained at minimal cost. As of February 2008, the regional offices were working with the
Office of the Chief Information Officer and the Investment Review Board to have the
prohibition of mapping software on Peace Corps computers lifted so posts would be able to
collect coordinates and create precise maps for locating Volunteers.

Contact Information for Volunteers
Thirteen percent of the site locator forms that we reviewed provided only cell phone
numbers as a means of contacting Volunteers. According to the Standard Operating
Procedures for the Emergency Action Plan Template:

         A redundant communication system must be created and maintained
         between the [Peace Corps] office and [Volunteers]. All [Volunteers] must
         complete a Site Locator Form and indicate a primary, secondary, and tertiary
         means of communication.

The importance of this point was highlighted during Peace Corps’ evacuation of Cote
d’Ivoire in September and October 2002, after fighting erupted between a rebel group and
government forces. According to the PCSSO report covering this event, two of the post’s
most important means of communication failed: the cell phone network and the FM radio
frequency. This problem hampered Peace Corps’ efforts to broadcast safety messages to its
Volunteers, verify their safety, and even maintain contact with staff who had left the capital
to retrieve Volunteers.

Information on Local Medical Facility
Twenty-one percent of the site locator forms that we reviewed did not include any
information on the closest medical facility to the Volunteer’s site, and 38% did not provide
information on the nearest police station. The Post Management Handbook states:

              Components of [emergency] action plans include…updated emergency
              information forms (or emergency site locator forms) for each Volunteer
              and site, including … nearest clinic, airfield and police post, and various
              other site-related information…

In our opinion, without this information, Peace Corps has no assurance that its Volunteers
know where to get help locally in the event that staff cannot quickly reach them during
medical or police emergencies.

We believe that these problems persisted because the posts relied on Volunteers to
accurately fill out and submit the site locator forms to the Peace Corps office. Most of the
posts we visited also required a Peace Corps staff member to review the site locator forms,
but this process still did not consistently result in accuracy or completeness. Rather than
using this method, staff could take on the responsibility of drawing a map to the Volunteer’s
residence and filing in the form’s most critical elements during site development visits. This
information could be verified by staff during site visits and augmented by Volunteers as they
discover additional resources and means of communication throughout their service.
Additionally, country directors could hold staff accountable for the accuracy and
completeness of the most important sections of the site locator forms.



Final Program Evaluation Report: Volunteer Safety and Security                              33
                  We recommend:

                  18. That the regional directors require Peace Corps staff
                      members to fill out the most critical sections of site
                      locator forms during site development visits and require
                      country directors to hold staff responsible for the
                      accuracy and completeness of those sections.

                  19. That the Office of Safety and Security determine if global
                      positioning system tools would complement the agency’s
                      safety and security initiatives.



     STRATEGIC GOALS AND PERFORMANCE INDICATORS
In its 2002 report on Volunteer safety and security, GAO recommended that the
Peace Corps Director develop indicators to assess the effectiveness of the safety and
security initiatives. As a result, Peace Corps developed agency-wide and office-
specific performance goals and indicators related to Volunteer safety and security.

Peace Corps’ strategic goals and performance indicators do not consistently promote
improvement in the Volunteer safety and security environment.

Peace Corps’ outcome goal 19 related to safety and security is to “increase the percentage of
Volunteer survey respondents indicating they feel safe most of the time [‘usually safe’ to
‘very safe’] where they live from the FY 2002 level of 86% to 88% by FY 2008.”
We believe that the intended result of the Volunteer safety support system is to enhance
Volunteer and Trainee safety overseas, not just to ensure that Volunteers feel safe where
they live. Volunteers’ feelings regarding safety may not reflect how safe they really are.
Volunteers who have spent a relatively short time in their new communities may not be able
to judge the degree to which they are safe. According to the 2006 biennial survey, upon
which Peace Corps’ safety and security outcome goal is measured, 46% of responding
Volunteers had lived at their sites nine months or less.

We noted that in the FY 2007 PAR, Peace Corps began using the results of annual close-of-
service surveys to monitor progress on this goal during the years when the biennial survey is
not given. We agree that at the end of service, Volunteers can better judge their degree of
safety, but even after two years of living in a foreign country, their views should not be the
primary basis upon which Peace Corps monitors overall progress related to its safety and
support system.



19
   According to OMB Circular A-11, “Preparation, Submission, and Execution of the Budget,” outcomes
“describe the intended result of carrying out a program or activity. They define an event or condition that
is external to the program or activity and that is of direct importance to the intended beneficiaries and/or the
public.”


Final Program Evaluation Report: Volunteer Safety and Security                                              34
Additionally, it is our opinion that determining how safe Volunteers feel where they live does
not take into account the safety of Volunteers away from their sites. The current outcome
goal does not capture incidents like the following, quoted from a 2007 CIRF report:
“Female Volunteer reported..that she was raped in [a city in her country of service]
approximately two month[s] prior.…The Volunteer stated that she feels safe at her site, and
the incident occurred when she was away from her site.” At some posts, a significant
number of crimes against Volunteers occur outside of their communities: between February
2006 and June 2007, only 5% of crimes against Volunteers in Bolivia occurred at their sites.

We found that Peace Corps’ outcome goal for Volunteer safety is an incomplete measure of
this issue.

Agency safety and security performance indicators merit revision.

Only one target 20 for the current agency-wide safety and security performance indicators has
changed since FY 2004. These targets merit revision, since Peace Corps has always met or
exceeded them.

Performance indicators developed by the Africa, EMA, and IAP regions and the Office of
Safety and Security did not strive for continual improvement in the Volunteer safety and
security environment. Our review of these offices' three most recent strategic plans showed
that nearly three-quarters of safety and security-related performance indicators anticipated
no improvement throughout the years covered by the strategic plans.

Table 9. Performance Indicators in the Three Most Recent Strategic Plans
                        Indicators
                                                                Percentage of
                       Anticipating
                                         Total Indicators Indicators Anticipating
                           No
                                                              No Improvement
                      Improvement
IAP Region                  23                   24                  96%
EMA Region                  33                   47                  70%
Africa Region               29                   34                  85%
Safety and Security         12                   27                  44%
Totals                      97                  132                  74%
Source: The Regions’ and Office of Safety and Security’s Strategic Plans for FY 2006 to 2008, FY 2007 to 2009,
and FY 2008 to 2010.


As this report’s findings have indicated, the Volunteer safety and support system can be
improved, but Peace Corps' strategic plans do not always reflect this fact. The agency can
draw from the issues highlighted in this report as well as from its staff's experience to


20 According to OMB's Program Assessment Rating Tool Guidance Nos. 2006-02 and 2007-02: Targets
refer to improved levels of performance needed to achieve the stated goals. These targets must be
ambitious [original emphasis] (i.e., set at a level that promotes continued improvement given program
circumstances) and achievable [original emphasis] given program characteristics. … Target setting should
consider circumstances (e.g., funding levels, changing legislative constraints, past performance) and targets
may be adjusted annually as these factors change.


Final Program Evaluation Report: Volunteer Safety and Security                                             35
develop more effective safety and security goals. New output and outcome goals should
include meaningful and ambitious performance indicators; possibilities include:

     •   The percentage of major crime data elements reported in error via the CIRF or
         CIRS.
     •   The average number of days that posts take to report violent and non-violent crimes
         to Headquarters.
     •   The percentage of Volunteer sites that meet the post’s own site criteria.
     •   The percentage of Volunteers receiving the minimum number of site visits, per post
         policy.
     •   The percentage of posts that annually test all phases of their EAP.
     •   The percentage of posts testing their EAPs on an annual basis without using cell
         phones.
     •   The percentage of site locator forms reviewed for accuracy.
     •   The percentage of Volunteer sites for which Peace Corps has recorded GPS
         coordinates.

Since 2005, we found no indication that the agency attempted to officially revise these
targets by approaching OMB. Also, we found no evidence that Peace Corps unofficially
revised the targets in-house to enhance accountability. Furthermore, officials involved in
developing strategic plans for the three Peace Corps regions noted that while the Office of
the Director has provided them feedback on their strategic plans, the issue of ambitious
targets has not arisen.

In our opinion, by not developing meaningful goals and performance indicators, Peace
Corps cannot determine the extent to which it is addressing critical shortcomings in the
Volunteer safety and support system. Further, the agency jeopardizes its fulfillment of the
goals outlined in the Government Performance and Results Act. 21


                  We recommend:

                  20. That the Office of Strategic Information Research and
                      Planning ensure that Peace Corps’ strategic goals,
                      objectives, and performance indicators related to safety
                      and security are meaningful at the agency and individual
                      office levels.


21
   The goals of the Government Performance and Results Act are: a) To improve the confidence of the
American people in the capability of the Federal government, by systematically holding Federal agencies
accountable for achieving program results, b) To improve Federal program effectiveness and public
accountability by promoting a new focus on results, service quality, and customer satisfaction, c) To help
Federal managers improve service delivery, by requiring that they plan for meeting program objectives and
by providing them with information about program results and service quality, d) To improve congressional
decision-making by providing more objective information on achieving statutory objectives, and on the
relative effectiveness and efficiency of Federal programs and spending, and e) To improve internal
management of the Federal government.


Final Program Evaluation Report: Volunteer Safety and Security                                         36
We believe that the outlook for improving strategic planning with regard to safety and
security is hopeful. In 2006, the Director established the Office of Strategic Information,
Research, and Planning (OSIRP), in part to meet the agency’s performance planning and
reporting needs. This office is responsible for articulating and coordinating the content on
goals, measures, and performance of the Peace Corps. In an interview, the director of
OSIRP generally concurred with our findings in this area and noted that a safety and security
working group was in the process of revising the agency-wide performance indicators for the
next 6-year strategic plan required under the Government Performance and Results Act.




Final Program Evaluation Report: Volunteer Safety and Security                            37
                           LIST OF RECOMMENDATIONS

We recommend:

1. That the regional directors establish policies and procedures to monitor the timeliness of
   crime incident report submissions from the posts.

2. That the Office of Safety and Security conduct an independent review of agency safety
   and security incident data for validity and reliability.

3. That the Office of Safety and Security implement written policies and procedures that
   detail quality assurance requirements for Peace Corps’ safety and security incident data.

4. That the Office of Safety and Security establish an allowable data error rate and
   systematically check safety and security incident data fields for accuracy and consistency.

5. That the Office of Safety and Security implement policies and procedures to guide post
   and CSA staff in accurately and consistently reporting safety and security incident data.

6. That the Office of Safety and Security request a staffing assessment to determine
   whether the Crime Statistics and Analysis unit requires more personnel resources.

7. That the regional directors implement a process to ensure that safety and security
   incident data is effectively reviewed for accuracy and clarity by country directors before
   submission to headquarters.

8. That the Office of Communications include in the Welcome Books (1) an internet link
   to the Safety of the Volunteer report and (2) a statement that informs potential
   Volunteers that risk factors in their country of service may vary from the global risk
   factors.

9. That the Office of Volunteer Recruitment and Selection include a statement in its
   invitation materials to encourage potential Volunteers to review country of service risk
   factors in the most recent Safety of the Volunteer report.

10. That the Office of Safety and Security revise the Pre-Service Training Safety and Security
    competencies to include demonstrating culturally appropriate ways to respond to a crime
    situation.

11. That the regional directors provide the posts with:
    • Examples of well-developed post safety and security criteria.
    • Examples of well-designed checklists for use in verifying whether post safety and
       security criteria have been met.
    • An explanation of how to rank site and housing criteria, including procedures for
       making exceptions to criteria.



Final Program Evaluation Report: Volunteer Safety and Security                                38
12. That the regional directors establish a system to ensure that posts develop and follow
    housing policy standards, such as inspecting every house before a Volunteer moves in, to
    ensure appropriate, safe, and secure Volunteer housing.

13. That the regional directors implement a tracking and monitoring system for PCSSO
    recommendations.

14. That the Office of Safety and Security assist the regions to develop methods for
    evaluating PCSSO recommendations and establishing management priorities for
    addressing Volunteer safety and security.

15. That the regional directors ensure that all EAPs are reviewed and revised to contain:
    • Clear code words (if code words are used).
    • Logical trip wires that anticipate the most likely emergencies and posts’ planned
       actions.
    • Communication responsibilities and contact information.
    • Readable street maps to Volunteers’ consolidation points.
    • Contact information for all means of emergency transportation identified in the
       EAP, including charter flights and ground transportation.

16. That the Office of Safety and Security develop and administer safety and security
    compliance training to all regional personnel responsible for reviewing MS 270
    documents, including EAPs and MS 270 compliance reports.

17. That the regional directors establish a system to ensure that all posts test their EAPs
    annually, including testing the EAPs under “varying conditions.”

18. That the regional directors require Peace Corps staff members to fill out the most critical
    sections of site locator forms during site development visits and require country
    directors to hold staff responsible for the accuracy and completeness of those sections.

19. That the Office of Safety and Security determine if global positioning system tools would
    complement the agency’s safety and security initiatives.

20. That the Office of Strategic Information Research and Planning ensure that Peace
    Corps’ strategic goals, objectives, and performance indicators related to safety and
    security are meaningful and ambitious at the agency and individual office levels.




Final Program Evaluation Report: Volunteer Safety and Security                                39
APPENDIX A
Comparison of Global Risk Factors for Assaults Reported in Welcome Books with Actual Country Data for 20041

                                                   Occurred When        Occurred between                              Occurred When the 
                             Occurred in a                                                     Occurred during                                 Involved Alcohol 
                                                 the Volunteer Was        5:00 p.m. and                                 Volunteer Was 
                             Public Place                                                       the Weekend 1                                    Consumption 
                                                     Not at Site            2:00 a.m.                                  Unaccompanied 2
                Total      Welcome     Actual    Welcome      Actual    Welcome      Actual    Welcome      Actual    Welcome     Actual     Welcome          Actual 
     Post 
               Assaults     Book        Data      Book         Data      Book         Data      Book         Data      Book        Data       Book             Data 
                             “Most 
Bolivia           8                     75%         43%        38%      “Usually”     25%      “Usually”     25%        82%        25%         40%             13% 
                            Crimes” 
                             “Most 
Jamaica           5                     20%         43%        40%      “Usually”     40%      “Usually”     40%        82%        0%          40%             0% 
                            Crimes” 
Kyrgyz                       “Most 
                  12                    66%         43%        16%      “Usually”     42%      “Usually”     25%        82%        25%         40%             8% 
Republic                    Crimes” 
                             “Most 
Mali              4                     25%         43%        50%      “Usually”     50%      “Usually”     0%         82%        50%         40%             25% 
                            Crimes” 
                             “Most 
Moldova           5                     100%        43%        20%      “Usually”     80%      “Usually”     20%        82%        0%          40%             40% 
                            Crimes” 

                             “Most 
Mongolia          7                     57%         43%        29%      “Usually”     71%      “Usually”     29%        82%        0%          40%             14% 
                            Crimes” 

                             “Most 
Senegal           8                     62%         43%        88%      “Usually”     13%      “Usually”     62%        82%        20%         40%             13% 
                            Crimes” 
                             “Most 
Swaziland         3                     66%         43%        33%      “Usually”     67%      “Usually”     67%        82%        0%          40%             0% 
                            Crimes” 
                             “Most 
Thailand          1                      0%         43%        0%       “Usually”    100%      “Usually”     0%         82%        0%          40%             0% 
                            Crimes” 
                             “Most 
Vanuatu           13                    85%         43%        92%      “Usually”     46%      “Usually”     77%        82%        50%         40%             15% 
                            Crimes” 




1
    This column includes all incidents that took place from Friday through Sunday, in accordance with the method that the Peace Corps calculates this data.
2
    This column includes data for sexual assaults only.
  APPENDIX B
  Threats to Volunteer Safety at Posts That Did Not Include All Volunteers in Emergency Action Plan Tests
        Post                                                                      Nature of Threat
                    Political and Civil Unrest: As many as 20 inter‐ and intra‐ ethnic conflicts have been recorded since 1980.  One conflict in 1994 engulfed an 
  Ghana                       area of 50,000 square kilometers and involved approximately one million people. 
                    Epidemics: Avian flu has been reported in three towns, but the entire country is at risk. 
                    Natural Disasters: In 1998, Hurricane Mitch caused approximately 260 deaths in Guatemala, and 30,000 people died in a 1976 earthquake. 
  Guatemala 
                    Political and Civil Unrest: A strong possibility exists for civil unrest, usually taking the form of protests, roadblocks, and marches. 
                    Natural Disasters: In 2003, 626 people were injured and 36,000 were affected by an earthquake.  Floods and landslides have also affected 
  Kazakhstan 
                              more than 30,000 people since 2001. 
                    Natural Disasters: In 1991, extensive floods affected 268,000 people and resulted in 472 deaths. 
                    Political and Civil Unrest: Anti‐American riots took place in one city in 2003 after the arrest of terror suspects.  Political violence occurred 
  Malawi 
                              following the 2004 general elections. 
                    Epidemics: Epidemics caused nearly 700 deaths in 2001 and 2002. 
                    Natural Disasters: Since February 2007, floods in the northeastern part of the country have cut off villages and schools, resulting in the 
  Namibia                     evacuation of 1,400 students and teachers.  Droughts from 1982 through 2004 affected nearly all of Namibia. 
                    Political and Civil Unrest: The Angolan civil war spilled over Namibia’s borders in 1999. 
                    Natural Disasters: Drought affected 3.6 million people in 2001 and 2005. 
  Niger             Political and Civil Unrest: Niger has had three coups, and student protests, which can turn violent, are becoming increasingly common.  
                            Strikes and work stoppages could also result in civil unrest. 
                    Natural Disasters: The Philippines is very earthquake‐prone, with the last two major destructive earthquakes occurring in 1990 and 1994.  
                              Volcanic eruptions in 1992 and 2001 threatened lives and disrupted travel.  This country is also at risk for typhoons. 
  Philippines 
                    Political and Civil Unrest: Military coups were frequent from 1989 to 1990, and the most recent attempted coup occurred in 2003. 
                    Terrorism: Bombings have claimed many lives and injured hundreds of people in recent years. 
                    Natural Disasters: Nearly 6,000 people were killed after a tsunami struck in December 2004.  Since 2002, Volunteers living in three 
                              provinces have been forced to leave their homes due to flooding. 
  Thailand 
                    Political and Civil Unrest:  The most recent military coup occurred in September 2006. 
                    Terrorism:  On December 31, 2006, a series of bombings killed three and injured more than 20 people in Bangkok. 
                    Natural Disasters: This country has a history of floods and earthquakes that could require Volunteers to leave affected areas. 
  Turkmenistan 
                    Political and Civil Unrest: A natural disaster or leadership change could threaten stability, with conditions deteriorating rapidly. 
                    Natural Disasters:  Certain areas have been subject to flooding due to heavy rainfall, sudden melting of snow, and damages to dams. 
  Ukraine           Political and Civil Unrest: Anti‐American and Anti‐NATO demonstrations have occurred, in addition to attacks on election polling stations. 
                    Epidemics: Avian flu has been discovered in localized areas, but the disease has not claimed any human lives. 


Source: EAPs of the posts listed above, with the exception of Thailand. The information on Thailand was taken both from its EAP and news reports found at
www.cnn.com, since that post did not update its March 2007 EAP to include all the significant threats shown here.
APPENDIX C
    Historical Perspective of Peace Corps’ FY 2007 Performance Goal and
             Indicators Related to Volunteer Safety and Security
 
    Overall Performance Goal: Incrementally increase the percentage of respondents to the biennial
    Peace Corps Volunteer survey indicating that Volunteers feel safe most of the time (“usually safe”
    to “very safe”) where they live by 2% from FY 2002 level of 86% to 88% by FY 2008.
    Performance Indicator No. 1: Posts undergoing safety and security assessments (FY 2004 and
    2005) or percentage of posts receiving safety and security report recommendations annually
    (FY 2006 and 2007) 3
                                                         

      FY               Target                        Actual                    Change from Prior Period 




                                                               Targets Met  
     2004               75%                           92%                               N/A 




                                                               or Exceeded 
     2005               85%                           86%                             Decrease 
                                       Targets 




                                                                                                    Results 
                                                                                                    Mixed 
                                         Static 


     2006               85%                           85%                             Decrease 
     2007               85%                           87%                             Increase 

    Performance Indicator No.2: Percentage of Volunteer respondents reporting the safety and
    security portion of their pre-service training as “adequate,” “effective,” or “very effective” as
    measured by the biennial Volunteer survey.
                                                         

      FY               Target                        Actual                    Change from Prior Period 
                                   Static Targets 




    2004                85%                           95%                                N/A 
                                                               Exceeded 
                                                                Targets 



    2005                N/A                           N/A                                N/A 




                                                                                                       Results 
                                                                                                        Mixed 
    2006                85%                           94%                             Decrease 
    2007 4              85%                           96%                             Increase 

    Performance Indicator No.3: Percentage of Volunteer respondents reporting they were
    “somewhat,” “considerably,” or “completely” satisfied with support provided by Peace Corps
    staff for safety and security, as measured by the biennial Volunteer survey.
                                                         

      FY               Target                        Actual                    Change from Prior Period 
                                   Static Targets 




    2004                85%                           91%                                N/A 
                                                               Exceeded 
                                                                Targets 




    2005                N/A                           N/A                                N/A 
                                                                                                            Results 
                                                                                                             Mixed 




    2006                85%                           92%                              Increase 
    2007 5              85%                           90%                             Decrease 




3
  According to the Chief, Volunteer Safety and Overseas Security Division, very few security assessments
resulted in no report with recommendations. Therefore, even though the wording of this performance
indicator changed, the indicator has always been determined using essentially the same data.
4
  Peace Corps used close-of-service survey results to inform this performance indicator since the biennial
Peace Corps Volunteer survey will be conducted again in FY 2008.
5
  Peace Corps used close-of-service survey results to inform this performance indicator as well.
APPENDIX D
PRIOR REPORTS

Over the past five years, the GAO and the Peace Corps OIG have reported extensively on
the safety and security of Peace Corps Volunteers. GAO’s reports focused exclusively on
safety and security, while the OIG included safety and security as one area of review in many
of its program evaluations and audits of Peace Corps posts.

Government Accountability Office Reports

   ¾ “Initiatives for Addressing Safety and Security Challenges Hold Promise, but
     Progress Should be Assessed” (GAO-02-818, July 2002).
     According to this report, the Peace Corps had adopted policies that broadly
     addressed the major elements of the Volunteer Safety and Support System.
     However, the report noted “mixed performance in key areas” regarding the agency’s
     efforts to implement these policies. According to GAO, unclear guidance,
     inadequate staff training, uneven application of supervision and oversight
     mechanisms, and staff turnover hampered Peace Corps’ efforts to ensure high-
     quality performance for the agency as a whole. GAO therefore recommended that
     the Peace Corps develop indicators to assess the effectiveness of its new safety and
     security initiatives and include the results of those initiatives in its annual reports
     under the Government Performance and Results Act. The report also
     recommended that Peace Corps develop a strategy to address staff turnover. The
     agency concurred with these recommendations.

   ¾ “Peace Corps, Status of Initiatives to Improve Volunteer Safety and Security”
     (GAO-04-600T, testimony provided to the House Committee on International
     Relations on March 24, 2004).
     This testimony provided a summary of GAO’s findings from its July 2002 report and
     included an update on Peace Corps’ actions since the release of that report.
     According to the testimony, the Peace Corps established the Office of Safety and
     Security to strengthen supervision and oversight of safety and security worldwide. In
     response to GAO’s recommendations from the 2002 report, the testimony noted
     that Congress had granted Peace Corps authority to exempt 23 safety and security
     positions from the five-year statutory restriction on tenure. In addition, GAO noted
     that Peace Corps had adopted a framework to monitor post compliance and develop
     quantifiable performance indicators. At the time this testimony was presented, the
     agency was reportedly still clarifying guidance, revising indicators, and establishing a
     performance baseline.

   ¾ “Peace Corps, Observations on Volunteer Safety and Security” (GAO-04-903T,
     testimony provided to the Senate Subcommittee on Western Hemisphere, Peace
     Corps, and Narcotics Affairs on June 22, 2004).
     This testimony provided the same information summarized above under GAO
     report number GAO-04-600T.
APPENDIX D
PRIOR REPORTS
Peace Corps Office of Inspector General Reports

The majority of safety and security recommendations from prior OIG program evaluations
and audits focused on the selection and monitoring of Volunteers’ sites and emergency
action plans. Other areas of substantial focus included training related to safety and security,
language, and cross-cultural issues; reporting and responding to incidents; transportation
policies; staff training; and out-of-site policies.

Safety and Security Recommendations in OIG Reports, January 2002-August 2007
Recommendation Area                                                         Number
Selection and Monitoring of Sites                                            136
Emergency Action Plan                                                        120
Volunteer Training                                                            69
Reporting and Responding to Incidents                                         27
Staff Training                                                                18
Transportation Policy                                                         12
Out-of-Site Policy                                                            10
Volunteer Behavior                                                            7
Volunteer Transit Houses                                                      5
Compliance with Peace Corps Manual section 270                                4
Monitoring, Assessing, and Disseminating Information                          3
PCSSO Recommendations                                                         2
Miscellaneous                                                                 10
Total                                                                        423


The following 48 OIG reports included recommendations on Volunteer safety and security:
   Program Evaluation of Peace Corps/Niger (IG-01-03-S, May 2002)
   Audit, Program Evaluation, and Safety and Security Assessment of Peace Corps/Russia
   (IG-01-09-AES, May 2002)
   Audit and Safety and Security Assessment of Peace Corps/Senegal (IG-01-10-AS,
   February 2002)
   Program Evaluation and Audit of Peace Corps/Jordan (IG-01-11-EA, March 2002)
   Program Evaluation, Safety and Security Assessment, and Administrative Review of
   Peace Corps/Ghana (IG-01-12-ES, March 2002)
   Evaluation and Audit of Peace Corps/El Salvador (IG-01-15-AE, April 2002)
   Program Evaluation of Peace Corps/Burkina Faso (IG-02-02-E, March 2002)
   Audit, Program Evaluation, and Safety and Security Assessment of Peace Corps/Bolivia
   (IG-02-05-AES, September 2002)
   Audit, Program Evaluation, and Safety and Security Assessment of Peace
   Corps/Philippines” (IG-02-07-AS, February 2003)
   Program Evaluation of Peace Corps/Cape Verde (IG-02-08-E, February 2003)
   Review of the Peace Corps United Nations Volunteer Program (IG-02-10-AE, March
   2003)
   Program Evaluation of Peace Corps/Vanuatu (IG-02-12-E, January 2003)
   Program Evaluation of Peace Corps/Thailand (IG-02-14-E, March 2002)
   Audit and Program Evaluation of Peace Corps/Kazakhstan (IG-02-22-FAE, January
   2003)
APPENDIX D
PRIOR REPORTS
  Audit, Program Evaluation, and Safety and Security Assessment of Peace
  Corps/Romania (IG-02-23-FES, January 2003)
  Program Evaluation and Audit of Peace Corps/Morocco (IG-02-25, June 2003)
  Program Evaluation and Audit of Peace Corps/Tanzania (IG-02-26, July 2003)
  Audit of Peace Corps/Mongolia (IG-02-27-A, March 2003)
  Audit of Peace Corps/Samoa (IG-03-01, October 2003)
  Program Evaluation and Audit of Peace Corps/Guatemala (IG-03-03-EA, September
  2003)
  Program Evaluation and Audit of Peace Corps Kenya (IG-03-02-AE, September 2003)
  Program Evaluation and Audit of Peace Corps/Moldova (IG-03-08-AE, January 2004)
  Program Evaluation of Peace Corps/Mozambique (IG-03-09-E, September 2004)
  Program Evaluation and Follow-up Audit of Peace Corps/Togo (IG-03-11-AE, April
  2004)
  Program Evaluation and Audit of Peace Corps/Gabon (IG-03-13-AE, March 2004)
  Follow-up Program Evaluation and Audit of Peace Corps/Benin (IG-03-14-FUE,
  January 2004)
  Program Evaluation and Audit of Peace Corps/Honduras (IG-04-02-AE, September
  2004)
  Program Evaluation and Audit of Peace Corps/Madagascar (IG-04-03-AE, October
  2004)
  Program Evaluation of Peace Corps/Mauritania (IG-04-10-E, January 2005)
  Audit of Peace Corps/Samoa (IG-04-11-FUA, December 2004)
  Program Evaluation and Audit of Peace Corps/Armenia (IG-05-02-AE, February 2005)
  Program Evaluation and Audit of Peace Corps/Tonga (IG-05-06-AE, March 2005)
  Program Evaluation of Peace Corps/Samoa (IG-05-07-E, March 2005)
  Program Evaluation of Peace Corps/Macedonia (IG-05-08-E, March 2005)
  Program Evaluation of Peace Corps/Dominican Republic (IG-05-11-E, April 2005)
  Follow-up Evaluation of Peace Corps/Mozambique (IG-05-12-FUE, May 2005)
  Program Evaluation and Audit of Peace Corps/Kiribati (IG-05-14-AE, July 2005)
  Program Evaluation of Peace Corps/Philippines (IG-05-16-E, August 2005)
  Program Evaluation and Audit of Peace Corps/Costa Rica (IG-05-17-AE, August 2005)
  Follow-up Program Evaluation of Peace Corps/Kenya (IG-05-18-FUE, August 2005)
  Program Evaluation of Peace Corps/Federated States of Micronesia and Palau (IG-05-
  20-E, September 2005)
  Program Evaluation and Audit of Peace Corps/Chad (IG-05-24-AE, September 2005)
  Follow-up Audit and Program Evaluation of Peace Corps/Gambia (IG-06-07-FUA,
  January 2006)
  Program Evaluation of Peace Corps/Bulgaria (IG-06-09-E, January 2006)
  Audit and Program Evaluation of Peace Corps/Zambia (IG-06-12-AE, June 2006)
  Program Evaluation of Peace Corps/Botswana (IG-06-18-E, September 2006)
  Program Evaluation of Peace Corps/Cameroon, (IG-07-01-E, October 2006)
  Audit and Program Evaluation of Peace Corps/South Africa (IG-07-02-EA, October
  2006)
  Audit and Program Evaluation of Peace Corps/Ecuador (IG-07-04-EA, January 2007)
  Program Evaluation of Peace Corps/Azerbaijan (IG-07-11-E, July 2007)
  Program Evaluation of Peace Corps/Eastern Caribbean (IG-07-12-E, July 2007)
  Program Evaluation of Peace Corps/Guinea (IG-07-14-E, August 2007)
    All Ten Posts In Sample
      Crime Incidents
                            Number of Incidents                   Percentage of Incidents
       with Reporting                               Frequency
                               Reviewed                           with Reporting Errors
           Errors
    Incidents with One
                                    309                113                  37%
    Error
    Incidents with Two
                                    309                 61                  20%
    or More Errors
    TOTALS                          309                 174             56% (average)

                          Total Number of       Number of Data        Percentage of Data
    Data Field            Data Fields           Fields Reported       Fields Reported
                          Reviewed              Incorrectly           Incorrectly
    Day of the Week              309                     32                   10%
    Time                         309                     71                   23%
    Classification               309                     40                   13%
    Location                     309                     53                   17%
    Offender                     309                     72                   23%
    Site Information             309                     23                    7%
    TOTALS                       291                   1,854              16% (average)




    PC/Bolivia
 
       Crime Incidents         Number of                                 Percentage of
        with Reporting     Incidents Reviewed        Frequency           Incidents with
            Errors                                                      Reporting Errors
     Incidents with One
                                   22                    10                   46%
     Error
     Incidents with Two
                                   22                    4                    18%
     or More Errors
     TOTALS                        22                    14              64% (average)

                             Total Number of      Number of Data       Percentage of Data
         Data Field            Data Fields        Fields Reported       Fields Reported
                                Reviewed            Incorrectly            Incorrectly
     Day of the Week               22                     3                  14%
     Time                          22                     4                  18%
     Classification                22                     3                  14%
     Location                      22                     6                  27%
     Offender                      22                    11                  50%
     Site Information              22                     3                  14%
     TOTALS                        132                   30              23% (average)
PC/Jamaica
   Crime Incidents       Number of                             Percentage of
   with Reporting        Incidents           Frequency         Incidents with
       Errors            Reviewed                             Reporting Errors
 Incidents with One
                             31                  9                  29%
 Error
 Incidents with Two
                             31                  1                   3%
 or More Errors
 TOTALS                      31                  10             32% (average)

                       Total Number of     Number of Data     Percentage of Data
     Data Field          Data Fields       Fields Reported     Fields Reported
                          Reviewed           Incorrectly          Incorrectly
 Day of the Week             31                  2                  7%
 Time                        31                  3                  10%
 Classification              31                  1                  3%
 Location                    31                  2                  7%
 Offender                    31                  3                  10%
 Site Information            31                  1                  3%
 TOTALS                      186                 12             7% (average)



PC/Kyrgyz Republic
  Crime Incidents         Number of                               Percentage of
   with Reporting     Incidents Reviewed      Frequency           Incidents with
       Errors                                                    Reporting Errors
Incidents with One
                             40                   17                   43%
Error
Incidents with Two
                             40                      5                 13%
or More Errors
TOTALS                       40                   22              55% (average)


                       Total Number of      Number of Data      Percentage of Data
     Data Field          Data Fields        Fields Reported      Fields Reported
                          Reviewed            Incorrectly           Incorrectly
Day of the Week              40                      3                  8%
Time                         40                      10                25%
Classification               40                      7                 18%
Location                     40                      5                 13%
Offender                     40                      6                 15%
Site Information             40                      3                  8%
TOTALS                       240                     34            14% (average)
PC/Mali
   Crime Incidents       Number of                              Percentage of
   with Reporting        Incidents          Frequency           Incidents with
       Errors            Reviewed                              Reporting Errors
 Incidents with One
                             51                 24                   47%
 Error
 Incidents with Two
                             51                 14                   28%
 or More Errors
 TOTALS                      51                 38              75% (average)

                       Total Number of    Number of Data     Percentage of Data
     Data Field          Data Fields      Fields Reported     Fields Reported
                          Reviewed          Incorrectly          Incorrectly
 Day of the Week             51                 8                  16%
 Time                        51                 18                 35%
 Classification              51                 4                   8%
 Location                    51                 5                  10%
 Offender                    51                 24                 47%
 Site Information            51                 4                   8%
 TOTALS                      306                63             21% (average)



PC/Moldova
  Crime Incidents       Number of                            Percentage of
  with Reporting        Incidents          Frequency         Incidents with
      Errors            Reviewed                            Reporting Errors
Incidents with One
                            27                 7                  26%
Error
Incidents with Two
                            27                 5                  19%
or More Errors
TOTALS                      27                 12             44% (average)


                      Total Number of    Number of Data     Percentage of Data
    Data Field          Data Fields      Fields Reported     Fields Reported
                         Reviewed          Incorrectly          Incorrectly
Day of the Week             27                 2                   7%
Time                        27                 3                  11%
Classification              27                 3                  11%
Location                    27                 4                  15%
Offender                    27                 6                  22%
Site Information            27                 1                   4%
TOTALS                      162                19             12% (average)
PC/Mongolia
   Crime Incidents                                                 Percentage of
                          Number of
    with Reporting                             Frequency           Incidents with
                      Incidents Reviewed
        Errors                                                    Reporting Errors
 Incidents with One
                             40                    16                   40%
 Error
 Incidents with Two
                             40                       8                 20%
 or More Errors
 TOTALS                      40                    24              60% (average)

                       Total Number of       Number of Data      Percentage of Data
      Data Field         Data Fields         Fields Reported      Fields Reported
                          Reviewed             Incorrectly           Incorrectly
 Day of the Week             40                       5                 13%
 Time                        40                       10                25%
 Classification              40                       4                 10%
 Location                    40                       9                 23%
 Offender                    40                       6                 15%
 Site Information            40                       2                  5%
 TOTALS                      240                      36            15% (average)


PC/Senegal
   Crime Incidents                                                 Percentage of
                          Number of
    with Reporting                             Frequency           Incidents with
                      Incidents Reviewed
        Errors                                                    Reporting Errors
 Incidents with One
                             48                    15                   31%
 Error
 Incidents with Two
                             48                    12                   25%
 or More Errors
 TOTALS                      48                    27              56% (average)


                      Total Number of      Number of Data      Percentage of Data
    Data Field          Data Fields        Fields Reported      Fields Reported
                         Reviewed            Incorrectly           Incorrectly
Day of the Week             48                   4                     8.
Time                        48                   10                  21%
Classification              48                   10                  21%
Location                    48                   13                  27%
Offender                    48                   7                   15%
Site Information            48                   6                   13%
TOTALS                      288                  50              17% (average)
PC/Swaziland
   Crime Incidents                                            Percentage of
                          Number of
    with Reporting                           Frequency        Incidents with
                      Incidents Reviewed
        Errors                                               Reporting Errors
 Incidents with One
                             27                  7                  26%
 Error
 Incidents with Two
                             27                  5                  19%
 or More Errors
 TOTALS                      27                  12            44% (average)

                       Total Number of     Number of Data    Percentage of Data
     Data Field          Data Fields       Fields Reported    Fields Reported
                          Reviewed           Incorrectly         Incorrectly
 Day of the Week             18                  2                 11%
 Time                        18                  6                 33%
 Classification              18                  2                 11%
 Location                    18                  4                 22%
 Offender                    18                  1                  6%
 Site Information            18                  1                  6%
 TOTALS                      108                 16            15% (average)



PC/Thailand
  Crime Incidents        Number of                            Percentage of
   with Reporting        Incidents           Frequency        Incidents with
       Errors            Reviewed                            Reporting Errors
 Incidents with
                             10                  1                 10%
 One Error
 Incidents with
 Two or More                 10                  1                 10%
 Errors
 TOTALS                      10                  2            20% (average)

                       Total Number of     Number of Data    Percentage of Data
     Data Field          Data Fields       Fields Reported    Fields Reported
                          Reviewed           Incorrectly         Incorrectly
 Day of the Week              10                 0                 0%
 Time                         10                 1                 10%
 Classification               10                 0                 0%
 Location                     10                 0                 0%
 Offender                     10                 2                 20%
 Site Information             10                 0                 0%
 TOTALS                       60                 3             5% (average)
    PC/Vanuatu
 
      Crime Incidents        Number of                           Percentage of
       with Reporting    Incidents Reviewed     Frequency        Incidents with
           Errors                                               Reporting Errors
    Incidents with One
                                22                  7                  32%
    Error
    Incidents with Two
                                22                  7                  32%
    or More Errors
    TOTALS                      22                  14            64% (average)

                          Total Number of     Number of Data    Percentage of Data
        Data Field          Data Fields       Fields Reported    Fields Reported
                             Reviewed           Incorrectly         Incorrectly
    Day of the Week             22                  3                 14%
    Time                        22                  6                 27%
    Classification              22                  6                 27%
    Location                    22                  5                 23%
    Offender                    22                  6                 27%
    Site Information            22                  2                  9%
    TOTALS                      132                 28            21% (average)
APPENDIX F

         MANAGEMENT’S RESPONSE TO
          THE PRELIMINARY REPORT
MEMORANDUM

To:              Kathy Buller, Inspector General

From:            Patrick J. Hogan, Associate Director for Safety and Security

CC:              David Liner, Chief of Staff/Operations
                 Allene Zanger, RD Inter-America and Pacific Region
                 Henry McKoy, RD Africa Region
                 Jay Katzen, RD Europe, Mediterranean and Asia Region
                 Richard Parker, Director of Communications
                 Rosie Mauk, AD Volunteer Recruitment and Selection
                 Ruben Hernandez, Director of the Office of Strategic Information,
                     Research and Planning
                 John Dimos, Chief Compliance Officer

Date:            August 4, 2008

Subject:         Preliminary Program Evaluation Report: Volunteer Safety and Security,
                 dated March 31, 2008.


This is a joint response to the recommendations made by Acting Inspector General
Geoffrey Johnson, regarding Volunteer Safety and Security as outlined in the Preliminary
Program Evaluation Report: Volunteer Safety and Security dated March 31, 2008.

The Office of Inspector General (OIG) recommendations are numbered 1 through 20.
Appearing immediately after each recommendation and labeled as Disposition is the
Peace Corps response prepared by the appropriate staff element.

The affected offices concur with 10 and partially concur with 8 of 20 recommendations.

1. That the regional directors establish policies and procedures to monitor the
   timeliness of crime incident report submissions from the posts.

      Disposition: Concur. The Office of Safety and Security will work with the Office
      of the Chief Information Officer (OCIO) to devise a technological solution within the
      Crime Incident Reporting System to automatically notify all recipients about
      incidents which are not reported in a timely fashion. In the meantime, until this
      system is developed, the Regional Safety and Security Desk Officer (SSDO) will
      inform their respective Regional Directors about trends in late reporting or egregious
      lapses in time between post receiving the incident information and completing an


                                              1
   incident report. Regions will work with the Office of Safety & Security to develop
   policies and procedures to monitor timeliness of incident reports by October 1, 2008.
   The Office of Safety and Security will work with the OCIO to get a technical solution
   as soon as possible.

2. That the Office of Safety and Security conduct an independent review of agency
   safety and security incident data for validity and reliability.

   Disposition: Partially Concur. The agency has recently launched a new incident
   reporting system which is intended to enhance quality assurance and control.
   Additionally, there are features which have been built into the new incident reporting
   system that provide “hints” when filling out the form, intended to minimize errors.
   Since this new system is designed to address many of the concerns associated with
   the interim incident reporting system (CIRF), the agency believes that it is premature
   to determine if an independent assessment is warranted. The Office of Safety and
   Security will monitor quality, validity and reliability on a quarterly basis and
   recommend follow-up actions as necessary.

3. That the Office of Safety and Security implement written policies and procedures
   that detail quality assurance requirements for Peace Corps’ safety and security
   incident data.

   Disposition: Concur. The Office of Safety and Security is working on policies and
   procedures that clarify quality assurance requirements with respect to incident data.
   Expected completion date is December 2008.

4. That the Office of Safety and Security establish an allowable data error rate and
   systematically check safety and security incident data fields for accuracy and
   consistency.

   Disposition: Concur. The allowable data error rate will be a part of the policies and
   procedures outlined above. The Office of Safety and Security will monitor this on an
   ongoing basis and will include data error information as part of the Safety of the
   Volunteer report beginning with 2008 data.

5. That the Office of Safety and Security implement policies and procedures to guide
   post and CSA staff in accurately and consistently reporting safety and security
   incident data.

   Disposition: Concur. The Office of Safety and Security will ensure that policies
   and procedures to guide post and Crime Statistics and Analysis Unit (CSA) staff are
   included in the policies and procedures that are being developed as noted above.
   These will be disseminated to the field upon completion. Expected completion date is
   December 2008.




                                            2
6. That the Office of Safety and Security request a staffing assessment to determine
   whether the Crime Statistics and Analysis unit requires more personnel
   resources.

   Disposition: Partially Concur. The Office of Safety and Security, CSA Unit has
   been primarily focused on two projects that have consumed the preponderance of
   their work hours: maintaining the now-superseded CIRF system, which was very
   labor intensive; and designing and developing a new replacement system. The new
   system, which was launched in April 2008, should significantly reduce the workload
   of the CSA unit, therefore allowing that unit to more carefully monitor quality
   assurance. The Office of Safety and Security believes that it is premature to conduct
   a staffing assessment until the impact of the new CIRS is evaluated. The staffing
   needs of CSA will be assessed during the spring 2009 IPBS process.

7. That the regional directors implement a process to ensure that safety and security
   incident data is effectively reviewed for accuracy and clarity by country directors
   before submission to headquarters.

   Disposition: Partially Concur. The newly established incident reporting process
   automatically informs all staff at post with access to the incident reporting system
   about an incident. This is an improvement over the old system, which did not inform
   all staff about an incident. If there are concerns about clarity or accuracy, country
   directors can access and update information as necessary. The Regions and the
   Office of Safety and Security do not believe that it is necessary for CDs to review the
   incident reports before they are submitted however, as this may further hinder the
   timeliness of reporting. Since incident information is reviewed at HQ by the Office
   of Safety and Security and the Regions, any questions or concerns about clarity or
   accuracy can be addressed on an as-needed basis.

8. That the Office of Communications include in the Welcome Books

       (1) an internet link to the Safety of the Volunteer report and

       (2) a statement that informs potential Volunteers that risk factors in their
       country of service may vary from the global risk factors.

   Disposition: Partially Concur.

       (1) The Safety of the Volunteer report is publicly available for any applicant to
       review. This report, however, contains technical information that is more difficult
       to digest and less relevant than the country-specific information that is currently
       available in the Welcome Books. The Office of Communications recommends
       instead using the “What About Safety” page on the website at
       www.peacecorps.gov/safety with the language in the attached document.




                                            3
       (2) The Office of Communications will begin including a statement in all
       Welcome Book revisions beginning October 1, 2008, which is also in the attached
       document.

9. That the Office of Volunteer Recruitment and Selection include a statement in its
   invitation materials to encourage potential Volunteers to review country of
   service risk factors in the most recent Safety of the Volunteer report.

   Disposition: Do Not Concur. Welcome Book information currently has country-
   specific information related to the country of service to which the individual is being
   invited. This information is aggregated and averaged over a 5-year period and
   compares crime information to other posts within the same region. The Safety of the
   Volunteer report only provides country specific incidence rates and the number of
   actual incidents for a specific year. Due to the low numbers of actual incidents of
   serious crimes in a given year, this information is less informative than a 5-year trend
   average. None-the-less, the Safety of the Volunteer report is available online for any
   individual to consult.

10. That the Office of Safety and Security revise the Pre-Service Training Safety and
    Security competencies to include demonstrating culturally appropriate ways to
    respond to a crime situation.

   Disposition: Do Not Concur. In the context of the OIG report, incident response
   strategies appear to refer to actions that a Volunteer would take to thwart an attack or
   improve their chances of survival. Training on averting an imminent attack must not
   be prescriptive and must recognize that individuals will respond according to their
   abilities and instincts. When taking action to either affect an escape or improve
   chances of survival, culturally appropriateness is not a consideration, and in fact,
   could further increase one’s risk. Strategies to escape or defend oneself must be
   based on ability, circumstances and judgment.

11. That the regional directors provide the posts with:

   • Examples of well-developed post safety and security criteria.

   • Examples of well-designed checklists for use in verifying whether post safety
      and security criteria have been met.

   • An explanation of how to rank site and housing criteria, including procedures for
      making exceptions to criteria.

       Disposition: Partially Concur. Regions and the Office of Safety and Security
       believe that posts are being provided with sufficient guidance and examples about
       post safety and security criteria and checklists for evaluating whether the criteria
       is being met. As part of their routine post visits, Peace Corps Safety and Security
       Officers (PCSSO) review and propose enhancements to posts’ criteria. However,



                                            4
       Regions and the Office of Safety and Security will review current strategies
       employed by posts and provide several good examples on the Peace Corps
       Intranet to ensure that posts have some examples. This will be done by October
       1, 2008.

       Regions and the Office of Safety and Security do not believe that posts need to
       rank site and housing criteria, nor do they necessarily need a process for making
       exceptions. Posts need a clear process to ensure that criteria are being met.
       Decisions about whether or not to “except” certain criteria are best made by post
       staff based on their knowledge of the security environment, site and other relevant
       factors.

12. That the regional directors establish a system to ensure that posts develop and
    follow housing policy standards, such as inspecting every house before a
    Volunteer moves in, to ensure appropriate, safe, and secure Volunteer housing.

   Disposition: Partially Concur. Regions concur that safe Volunteer housing is
   critical to the success of the Peace Corps and to Volunteer well-being. Based on
   current policy, Regions recognize that all sites must afford safe housing for
   Volunteers, and current MS 270 reporting requirements ask all CDs to ensure that site
   selection criteria and procedures are being met. The housing checklist is one of the
   means of verification. On the 2008 MS 270 compliance checklist, all posts indicate
   that they have and are using a housing checklist.

   Regions and the Office of Safety and Security have two concerns with the OIG
   findings related to safe and secure housing. The first is that some examples in the
   OIG report do not clearly demonstrate that the house failed to meet the criteria. For
   example, indicating that a break-in occurred does not mean housing failed to meet
   criteria. The implication is that the Volunteer was burglarized due to a housing
   security deficiency. The OIG does not demonstrate that this is the case. The second
   concern is that some of the items mentioned may demonstrate a maintenance issue
   rather than failure to initially meet criteria (i.e. latrine doors that had fallen off
   hinges).

   Regions and the Office of Safety and Security believe that improvements can be
   made, but are reluctant to be overly prescriptive due to the wide variation of
   Volunteer housing that is safe throughout the world. We also believe that Volunteers
   can and should be empowered to assume greater responsibility for ascertaining that
   their houses are acceptable and managing repairs where appropriate. The Office of
   Safety and Security and the Regions will work together to establish clearer policy
   guidance regarding Volunteer housing and procedures for ensuring that posts are
   ensuring housing meets criteria. Expected completion of the guidance is December
   2008.

13. That the regional directors implement a tracking and monitoring system for
    PCSSO recommendations.



                                            5
   Disposition: Concur. This has been completed in all three regions. Examples are in
   Attachment B.

14. That the Office of Safety and Security assist the regions to develop methods for
    evaluating PCSSO recommendations and establishing management priorities for
    addressing Volunteer safety and security.

   Disposition: Concur. The Office of Safety and Security will work closely with the
   Regions to ensure that there are clear procedures for evaluating PCSSO
   recommendations and establishing management priorities. Expected completing
   October 1, 2008.

15. That the regional directors ensure that all EAPs are reviewed and revised to
    contain:

   • Clear code words (if code words are used).

   • Logical trip wires that anticipate the most likely emergencies and posts’
      planned actions.

   • Communication responsibilities and contact information.

   • Readable street maps to Volunteers’ consolidation points.

   • Contact information for all means of emergency transportation identified in
      the EAP, including charter flights and ground transportation.

   Disposition: Partially Concur. Regions and the Office of Safety and Security
   concur that all necessary elements of EAPs need to be included and reviewed, but do
   not concur that all of the above-mentioned bullets must be included. In order to
   satisfy this recommendation, the Regions and the Office of Safety and Security will
   ensure that a revised and accurate checklist for reviewing EAPs is developed and
   disseminated. In addition, the Office of Safety and Security and the Regions will
   ensure that CDUs are trained in the use of the checklist to ensure they understand
   what components are critical when they are reviewing EAPs. A revised checklist
   will be developed and disseminated by October 1, 2008 and training will be ongoing
   after that date. All current regional employees with responsibility for reviewing
   EAPs will be trained by the end of Q2 2009.

16. That the Office of Safety and Security develop and administer safety and
    security compliance training to all regional personnel responsible for reviewing
    MS 270 documents, including EAPs and MS 270 compliance reports.

   Disposition: Concur. In collaboration with the Regions, the Office of Safety and
   Security will develop compliance training for all regional personnel responsible for



                                           6
   monitoring MS 270 compliance, including EAPs. This activity will be completed by
   the end of Q2, 2009.

17. That the regional directors establish a system to ensure that all posts test their
    EAPs annually, including testing the EAPs under “varying conditions.”

   Disposition: Concur. This activity has been completed with updated guidance sent
   to all posts in March 2008. Guidance is in Attachment C.

18. That the regional directors require Peace Corps staff members to fill out the
    most critical sections of site locator forms during site development visits and
    require country directors to hold staff responsible for the accuracy and
    completeness of those sections.

   Disposition: Partially Concur. We agree that Country Directors should hold their
   staff responsible for the accuracy and completeness of the most critical sections of
   site locator forms, but it is not practical or operationally prudent to require staff
   members to complete them during site development visits. As part of the site
   selection process, staff already gather information that would enable them to reach or
   contact the site in an emergency situation. The site locator form is an important site
   entry tool for the Volunteer and giving the Volunteer a partially completed form
   negates the responsibility for the Volunteer to make valuable contacts and locate
   health clinics or police posts (which could be remote).

   Alternatives, such as a more robust review and follow-up process (including the
   project manager and/or the staff person who visited the site for the selection process)
   would enhance site locator forms as a reliable means of finding the Volunteer’s site.
   The Office of Safety and Security will collaborate with Regions to ensure that
   guidance for improving the site locator form procedures is developed and
   disseminated by December 31, 2008.

19. That the Office of Safety and Security determine if global positioning system
    tools would complement the agency’s safety and security initiatives.

   Disposition: Concur. The Office of Safety and Security recognizes the value of
   GPS and GIS technology and its capability to enhance other safety and security
   systems. The Office of Safety and Security will collaborate with ongoing efforts to
   pilot GPS/GIS solutions and continue to research the possible ways in which
   GIS/GPS technology would be effective for the Peace Corps. The Office will present
   a recommendation to the Director by the end of Q2, 2009.

20. That the Office of Strategic Information Research and Planning ensure that
    Peace Corps’ strategic goals, objectives, and performance indicators related to
    safety and security are meaningful and ambitious at the agency and individual
    office levels.




                                            7
   Disposition: Concur

   2009-2014 OSIRP is working with all Peace Corps organizations to improve the
   outcome nature of our performance goals and indicators. This work is being done in
   conjunction with the development of the Peace Corps 2009-2014 Strategic Plan. This
   information was made available to the OIG program evaluators prior to the release of
   this preliminary report. The Peace Corps Strategic Plan will be submitted to the
   Office of Management & Budget on September 30, 2008

Attachments (3)




                                          8
APPENDIX G
OIG COMMENTS

Management concurred with 10 of the 20 recommendations, partially concurred with eight
recommendations, and did not concur with two recommendations. We closed
recommendation number 13. Recommendation numbers 1 – 12 and 14 – 20 remain open
pending confirmation from the chief compliance officer that the following has been
received:

   •   For recommendation number 1, documentation that the duty of monitoring the
       timeliness of incident reporting has been addressed by the regions.

   •   For recommendation number 2, documentation that the Office of Safety and
       Security has had an independent review of agency crime data conducted.
       Management’s response does not address the reliability of previously collected data
       that the agency will continue to use; this data should be validated for reliability.

   •   For recommendation numbers 3, 4, and 5, a copy of the quality assurance policies
       and procedures for the Crime Statistics and Analysis unit.

   •   For recommendation number 6, a copy of the plan to address inadequate staff time
       allotted to perform data quality control.

   •   For recommendation number 7, a copy of the regions’ plan to ensure that crime data
       submitted to headquarters is routinely reviewed for accuracy by an additional post
       staff member (i.e., not the staff member who originally submitted the crime data).

   •   For recommendation number 8, a copy of a revised Welcome Book that contains a
       statement informing Invitees that risk factors in their country of service may vary
       from the global risk factors.

   •   For recommendation number 9, documentation that Invitees are encouraged to
       review the “What about Safety” page on Peace Corps’ internet website.

   •   For recommendation number 10, documentation that Pre-Service Training Safety
       and Security competencies include culturally appropriate ways to respond to a crime
       situation.

   •   For recommendation number 11, documentation that examples of 1) well-developed
       post safety and security criteria, 2) well-designed checklists for use in verifying
       whether post safety and security criteria have been met, and 3) how some posts have
       ranked site and housing criteria, including procedures for making exceptions to
       criteria have been posted on the Peace Corps intranet.
APPENDIX G
   •   For recommendation number 12, documentation that regional directors have a
       system in place to ensure that posts develop and follow housing policy standards.

   •   For recommendation number 14, a copy of the regions’ policies and procedures for
       evaluating PCSSO recommendations.

   •   For recommendation number 15, a copy of the Emergency Action Plan (EAP)
       review checklist, and documentation that country desk unit staff have received EAP
       review training.

   •   For recommendation number 16, documentation that regional staff who review
       EAPs and MS 270 documents have received compliance training.

   •   For recommendation number 17, a copy of the revised EAP Testing Guidelines that
       state that testing under varying conditions is an agency requirement.

   •   For recommendation number 18, a copy of the regions’ guidance to overseas posts
       on improving site locator form accuracy and completeness.

   •   For recommendation number 19, a copy of the Office of Safety and Security’s
       recommendation to the Director on GIS/GPS technology.

   •   For recommendation number 20, a copy of the revised Office of Safety and Security
       strategic goals, objectives, and performance indicators.


In their response, management describes actions they are taking or intend to take to address
the issues that prompted each of our recommendations. We wish to note that in closing
recommendations, we are not certifying that they have taken these actions nor that we have
reviewed their effect. Certifying compliance and verifying effectiveness are management’s
responsibilities. However, when we feel it is warranted, we may conduct a follow-up review
to confirm that action has been taken and to evaluate the impact.
APPENDIX H
OIG CONTACT



OIG CONTACT        If you wish to comment on the quality or usefulness of this
                   report to help us improve our products, please e-mail
                   Shelley Elbert, Assistant Inspector General for Evaluations
                   and Inspections, at selbert@peacecorps.gov, or call (202)
                   692-2904.


STAFF              Team Leader Senior Evaluator Crist Chensvold, Alice
ACKNOWLEDGEMENTS   Bunker, Assistant Inspector General for Evaluations and
                   Inspections, and Senior Evaluators Lynn Khadiagala and
                   Carlos Torres contributed to this report.
        REPORT FRAUD, WASTE, ABUSE,
            AND MISMANAGEMENT


Fraud, waste, abuse, and mismanagement in government affect
everyone from Peace Corps Volunteers to agency employees to the
general public. We actively solicit allegations of inefficient and
wasteful practices, fraud, and abuse related to Peace Corps
operations domestically or abroad. You can report allegations to
us in several ways, and you may remain anonymous.




Mail:          Peace Corps
               Office of Inspector General
               P.O. Box 57129
               Washington, DC 20037-7129

Phone:         24-Hour Toll-Free:                  (800) 233-5874
               Washington Metro Area:              (202) 692-2915
               24-Hour Violent Crime Hotline:      (202) 692-2911

Fax:           (202) 692-2901

E-Mail:        oig@peacecorps.gov
